<html>
<title> - FENCING ALONG THE SOUTHWEST BORDER</title>
<body><pre>[Senate Hearing 115-295]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-295

                   FENCING ALONG THE SOUTHWEST BORDER

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               ----------                              

                             APRIL 4, 2017

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/
       
       
                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-015                     WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccabbca38cafb9bfb8a4a9a0bce2afa3a1e2">[email&#160;protected]</a> 



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
          Brooke N. Ericson, Deputy Chief of Staff for Policy
   Michelle D. Woods, U.S. Government Accountability Office Detailee
   Servando H. Gonzales, U.S. Customs and Border Protection Detailee
               Margaret E. Daum, Minority Staff Director
               Stacia M. Cardille, Minority Chief Counsel
               J. Jackson Eaton, Minority Senior Counsel
           Joel F. Walsh, Minority Professional Staff Member
   Timothy J. Brennan, Minority National Institute of Standards and 
                          Technology Detailee
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Lankford.............................................    18
    Senator Carper...............................................    20
    Senator Heitkamp.............................................    24
    Senator Harris...............................................    27
    Senator Hoeven...............................................    30
    Senator Daines...............................................    34
Prepared statements:
    Senator Johnson..............................................    41
    Senator McCaskill............................................    42

                               WITNESSES
                         Tuesday, April 4, 2017

David V. Aguilar, Former Acting Commissioner of U.S. Customs and 
  Border Protection at the U.S. Department of Homeland Security..     5
Ronald S. Colburn, Former Deputy Chief of U.S. Border Patrol at 
  U.S. Customs and Border Protection at the U.S. Department of 
  Homeland Security..............................................     8
Terence M. Garrett, Ph.D., Professor and Chair, Public Affairs 
  and Security Studies Department, The University of Texas Rio 
  Grande Valley..................................................    10

                     Alphabetical List of Witnesses

Aguilar, David V.:
    Testimony....................................................     5
    Prepared statement...........................................    47
Colburn, Ronald S.:
    Testimony....................................................     8
    Prepared statement...........................................    51
Garrett, Terence M., Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    56

                                APPENDIX

Majority Staff Report............................................    76
Minority Staff Report............................................   181
Howard Buffett statement referenced by Senator Heitkamp..........   188
Tohono O'odham Nation statement referenced by Senator Heitkamp...   192
Gangs Beyond Borders report referenced by Senator Harris.........   195
Statements submitted for the Record:
    Gerald Dickinson, Assistant Professor of Law, University of 
      Pittsburgh School of Law...................................   309
    National Immigration Forum...................................   314
    Texas Civil Rights Project...................................   321
    Patricia Elena Vidaurri, Land Owner and Citizen of the United 
      States of America..........................................   325
Responses to post-hearing questions for the Record
    Mr. Aguilar..................................................   327
    Mr. Colburn..................................................   332
    Dr. Garrett..................................................   335

 
                   FENCING ALONG THE SOUTHWEST BORDER

                              ----------                              


                         TUESDAY, APRIL 4, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Hoeven, 
Daines, McCaskill, Carper, Tester, Heitkamp, Peters, Hassan, 
and Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order. I want to welcome the witnesses. Thank you for your 
testimony. I am looking forward to your oral testimony and 
answering a lot of the questions we are going to have.
    This hearing is obviously called, ``Fencing Along the 
Southwest Border.'' I ask Unanimous Consent (UC) for my written 
statement to be entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    I do want to relay a couple of quotes that were in my 
written testimony.
    One came from Secretary John Kelly. When Secretary Kelly 
testified before this Committee in January, he said, ``the 
number one threat to the Nation is that we do not have control 
of our borders. Without control, every other kind of threat--
drugs, illegal immigrants, counterfeit manufactured goods and 
pharmaceuticals, diseases, terrorists, and the list goes on--
can enter at will, and it does.''
    Further, Chief Morgan, the Chief of the U.S. Border Patrol 
(USBP) under President Obama, testified before this Committee 
in November 2016 that fencing does work and that we need more 
of it.
    I was in Israel shortly before Christmas, and we inspected 
their fence along their Southern Border--143 miles--and they 
constructed it in about 2 years at a total cost of about $2.9 
million per mile. According to Israeli officials, they cut 
their illegal immigrant crossings from 16,000 to 18. So, again, 
I think there is ample evidence that fencing, when put in the 
right places and when it is properly designed, absolutely 
works.
    The purpose of this hearing, though, is to lay out the 
reality. We obviously have limited resources. President Trump 
has issued a couple of Executive Orders (EOs). The Border 
Security and Immigration Enforcement Executive Order instructs 
the Administration to take all appropriate steps to plan, 
design, and construct a physical wall, to identify and plan for 
long-term funding requirements, and release a study on security 
of the border within 180 days.
    Now, what I am focusing on with that is the planning, 
designing, identifying, and releasing a study on border 
security within 180 days. To me, Congress has a real role here, 
and the purpose of this hearing is to lay out the reality--take 
a look at where fencing will work and what is the best type of 
fencing. When I was in Israel, talking to Prime Minister 
Benjamin Netanyahu, he told me that there are three problems 
with fencing: tunnels, tunnels, and tunnels.
    So, it is not a panacea. It requires a layered approach. 
But, this is our 22nd hearing on securing our border. This is a 
top priority of this Committee. I am hoping every Member on 
this Committee realizes that there is real risk--there is real 
danger in not having a secure border. And, we have held 
hearings about some of the victims of people coming to this 
country illegally, because we do not have a secure border.
    So, I hope we can agree that we do need to provide far 
greater border security. We have to make that commitment to do 
it. But, I also hope we can agree that, while there are a lot 
of different opinions, there are a lot of challenges to 
building that border security--to building walls and to 
building fences--and that is really kind of what this hearing 
is all about--is to kind of lay out the reality and discuss 
those challenges, so we can have informed public policy, in 
terms of what we need to do to secure our border.
    So, with that, I will turn it over to my Ranking Member, 
Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you, Mr. Chairman, and let me 
publicly apologize to the witnesses, to the Chairman, and to 
the Committee for being tardy this morning. That is rude, and I 
apologize.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 42.
---------------------------------------------------------------------------
    There is no one on this Committee--and I do not think there 
is anyone in the Senate or in America--that does not want our 
borders to be secure. I think we can all agree on that.
    But, the other interesting point is, I have not met 
anyone--either a Border Patrol Agent (BPA) or a fellow Member 
of Congress, who actually have said that they think the most 
effective way to do that is to build a continuous concrete wall 
along the entirety of the Southern Border. I have not met 
anyone who says that is the best use of our resources, in terms 
of securing our border, and the only one who keeps talking 
about it is President Trump. And, I want to point out that 
while this hearing is called ``Fencing Along the Southwest 
Border,'' you never hear President Trump talk about the 
efficacy of fencing. You never hear President Trump indicate in 
his Executive Orders or anywhere else that he wants to look at 
this in a complex, holistic fashion to figure out what is the 
combination of things we need to do. Is it more resources at 
the ports of entry (POEs)? Is it more resources, in terms of 
Border Patrol? Is it more resources, in terms of U.S. 
Immigration and Customs Enforcement (ICE)? Is it more 
technology? Is it some sections of wall and maybe some sections 
of fencing?
    I think all of us are open to a variety of ways, and I 
think the thing we should be doing is listening to the people 
who are tasked with securing the border, and they are the first 
ones to tell you that it makes no sense to do a continuous wall 
along our Southern Border.
    So, with that beginning, I think it is important, at this 
hearing, that we stay focused on a couple of basics. What is 
the wall that the President is proposing going to look like? 
What is it going to cost? How is Mexico going to reimburse the 
American taxpayers for the billions of dollars they are being 
asked to spend on the wall?
    Since the beginning of this Congress, the Committee has 
conducted ongoing oversight of the Department of Homeland 
Security (DHS) and its plans to construct a concrete border 
wall. I have asked my staff to report to this Committee and the 
taxpayers on the results of our oversight of the wall to date.
    Based on information provided by U.S. Customs and Border 
Protection (CBP) officials to Committee staff, the wall that 
President Trump has promised could cost nearly $70 billion. 
That works out to more than $200 for every man, woman, and 
child in the United States of America. I am not sure that is a 
cost the American taxpayer is willing to bear, especially when 
they were told that Mexico would be paying for the wall--not 
the American people.
    The Department has told us that they plan to use funds 
intended to acquire remote video surveillance for the 
prototypes of the concrete wall. The $20 million they are using 
to do the prototypes came out of the very fund that all of the 
Border Patrol Agents told me they needed more of. In fact, it 
was to buy the remote video surveillance equipment that they 
proudly showed me they had put together themselves, which 
allowed them to see a more broad area along the Rio Grande 
River and allowed them to be more effective in catching the 
smugglers that were bringing people across the river illegally.
    When I asked Border Patrol agents over and over again, 
``What do you need?'', they told me they needed technology and, 
yes, some additional fencing--and I think the Chairman and I 
agree that some additional fencing or wall may be appropriate. 
But, they definitely said that they needed technology more than 
they needed additional wall. And so, it is ironic that the 
prototype for the wall is coming out of the very fund that they 
say they need the most.
    And, what about the big question that I would like to spend 
some time on today: the cost of acquiring the land that is 
going to be needed to build the wall. Two-thirds of the U.S.-
Mexico border is private and State-owned land. Some of this 
land has been in people's families for generations.
    I am not sure everyone realizes what a time-consuming 
process this would be. According to CBP, along one stretch of 
the border--mostly in South Texas--400 land acquisitions were 
needed to build some of the border fencing and security that is 
in place now. Of those 400 acquisitions, they had to file 330 
condemnation lawsuits--eminent domain--which, by the way, you 
say that word in rural Missouri, and you better run, because 
somebody is going to have their shotgun out. It is really 
controversial for the government to be seizing land, and that 
is what this is about--the government seizing private land.
    Over three hundred condemnation lawsuits were filed. Most 
of them were filed in and around 2008. And, of those 330 
condemnation cases, more than 90 of them are still pending 
today--nearly a decade later. This is not going to be quick. It 
is not going to be easy--and it is going to be very expensive.
    According to CBP, the government spent $78 million on land 
acquisition for the existing fencing--and those were the 
parcels that were the easiest to acquire. Going to people who 
do not have a lot of money and trying to buy them off--that is 
the easy part. The harder part is convincing people that own 
thousands of acres of expensive farmland--and what that means 
to them.
    Nobody can tell me how much it is going to cost to seize 
all of the land that will have to be seized to build what 
President Trump has promised the American people. It is going 
to take $21 million or more just to resolve the pending cases 
left over from 2008.
    In the course of prepping for this hearing, we talked to a 
lot of different landowners in South Texas, who were not happy 
about how they were treated by the government back when 
existing fencing was built a decade ago. One of these people is 
a gentleman from Brownsville, Texas, whose family runs a 
farming operation in the area. He had the misfortune of living 
in a house that was too close to the Rio Grande River, which is 
the international border. In some cases, there is a mile or two 
of land between where fencing was built and the river, and that 
is how this man's house--and some of the most fertile land in 
the world--ended up on the wrong side of the fence.
    When the government came knocking on his door, this 
Brownsville farmer was offered just a few thousand dollars for 
the narrow strip of land where an 18-foot-tall fence would 
eventually be built. He was not offered any money for the 
dozens of acres of farmland that would be trapped between the 
fence and the Rio Grande River. When he went to take out a loan 
on his valuable land to send his three girls to college, the 
bank told him that his farmland was now worthless and they 
would not lend him any money for his children's education.
    The horrible part of this story is, not only does he have 
to pass through a gate every time to go home--it is an 18-foot 
fence--he has to go through a gate just to go to the house. 
Think how isolated you would feel.
    But, here is the worst part: A few weeks ago, the house 
caught on fire. The Brownsville farmer told my staff that the 
fire marshal could not get through the fence to save his house 
from the flames, and it burnt to the ground--even though he had 
been promised that local emergency services would have the code 
to the gate. So, he lost the value of his land and now he has 
lost his home, because of the fence or the wall.
    Regardless of how you feel about President Trump's wall, 
Mr. Chairman, that is not how we should treat people that are 
landowners in this country. American families need to be 
treated with dignity and respect and need to be fairly 
compensated for any land that is taken from them.
    I will be the first one to tell you that we need to enforce 
the immigration laws that we have on the books and provide DHS 
officials with the tools and resources they need to secure the 
border. And, maybe, that means they need some portions of a 
wall built in some places. But, if we are going to pay to build 
this thing, we need to be honest about some of the true costs 
to the American people. Let us start, today, by speaking 
frankly about how much it is going to cost, how difficult it 
will be to acquire the land, how long that will take, and the 
impacts on the American landowners along the border--and 
whether all of those costs justify the benefit that we will 
receive.
    Thank you, Mr. Chairman, and I look forward to hearing from 
the witnesses.
    Chairman Johnson. Thank you, Senator McCaskill.
    As I mentioned, there will be challenges. By the way, those 
cases that were unresolved--92 of those are because we could 
not identify who the owners are. So, yes, there are all kinds 
of challenges, which is what the purpose of this hearing is: to 
lay out these realities.
    The tradition of this Committee is to swear in witnesses, 
so if you will all rise and raise your right hand? Do you swear 
that the testimony you will give before this Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Mr. Aguilar. I do.
    Mr. Colburn. I do.
    Mr. Garrett. I do.
    Chairman Johnson. Please be seated.
    Our first witness is David Aguilar. Mr. Aguilar is a former 
Acting Commissioner of U.S. Customs and Border Protection. Mr. 
Aguilar served as Chief of the U.S. Border Patrol from 2004 to 
2010 and as Acting Commissioner of CBP from 2011 to 2012. Mr. 
Aguilar.

TESTIMONY OF DAVID V. AGUILAR,\1\ FORMER ACTING COMMISSIONER OF 
 U.S. CUSTOMS AND BORDER PROTECTION AT THE U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Aguilar. Good morning. Thank you. Mr. Chairman, Ranking 
Member McCaskill, and distinguished Members of the Committee. I 
am honored to appear before you today to testify on issues 
associated with securing the Southern Border of the United 
States, to include what has obviously taken center stage in the 
ongoing border security discussion: construction of a physical 
wall along the Southwest Border, what I will refer to mostly as 
``infrastructure'' required along the Southwest Border.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Aguilar appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    My testimony is informed by my 35-year career as a Border 
Enforcement Officer and Department of Homeland Security 
Executive. I served as an agent in multiple Border Patrol 
sectors, including as the Chief of the Tucson Sector at the 
time when unlawful entries into the United States across our 
border with Mexico were at an all-time high.
    My views also reflect my experience as the former Acting 
Commissioner of U.S. Customs and Border Protection, the Deputy 
Commissioner of CBP, and the National Chief of the United 
States Border Patrol. It was during my tenure as National Chief 
that we developed and implemented our Nation's first-ever 
National Southwest Border Strategy, doubled the size of the 
Border Patrol, constructed over 650 miles of border 
infrastructure, and initiated the organized application of 
technology along the entirety of the Southwest Border with 
Mexico.
    Maintaining a safe and secure environment along the U.S.-
Mexico border is absolutely critical. A safe and orderly border 
that is predicated on the strong rule of law deprives criminal 
organizations, drug cartels, and criminal individuals the 
opportunity to thrive. It is absolutely important. It also 
provides a solid foundation for trade and economic development 
between Mexico and the United States as well as provides for 
improved security and quality of life in our border communities 
and throughout our Nation.
    Illegal border crossings have dropped dramatically. Our 
border communities are some of the safest cities and 
communities in the United States. Trade between our two nations 
is thriving. The barriers and infrastructure built and expanded 
between 2005 and 2011 along the border absolutely played a 
large part in the enhanced control of the Southwest Border. 
Now, we have done much to secure the border, but there is still 
much more to do.
    Borders are dynamic--significant challenges remain and new 
ones are developing. Drug trafficking into the United States is 
still a major problem, as is the illegal flow of bulk cash and 
firearms to Mexico from the United States. These criminal 
activities are the principal causes of the violence that has 
afflicted Mexico.
    Border fences, walls, and tactical infrastructure are 
absolutely a definitive part of the border security solution. 
Those of us with firsthand knowledge and security experience at 
the U.S.-Mexico border understand that infrastructure, 
technology, and personnel are critical aspects of the solution 
that will ensure enhanced control over the entire border. 
Walls, fences, and vehicle barriers are an integral part of a 
border enforcement system. Their purpose is to impede, deter, 
and slow down the illegal flow of people and vehicles across 
our land borders between the ports of entry. Properly designed, 
properly placed, and supported, this type of physical 
infrastructure creates an environment which enhances the Border 
Patrol's enforcement capabilities and its efforts to detect, 
deter, identify, classify, respond to, and resolve illegal 
border activity.
    There is no restriction that would bar DHS from 
constructing additional fencing or other barriers along the 
border, provided that the Secretary concludes such construction 
is necessary to achieve control of the border.
    Congress has also provided the Secretary broad authority to 
waive ``all legal requirements'' that may impede construction 
of border barriers and roads.
    Many issues will have to be taken into account: federally 
protected lands, private lands, Native American lands, and 
environmental concerns. But, it is important to note that there 
is nothing more destructive to environmentally sensitive land 
and quiet communities than the uncontrolled illegal flow of 
people, smugglers, vehicles, and criminal organizations. The 
placement of fences and deterrent infrastructure in previously 
uncontrolled parts of the border has actually allowed for the 
rejuvenation of areas that had previously been devastated due 
to heavy illegal pedestrian and vehicular traffic. Fences, 
barriers, walls, and technology have been instrumental to the 
Border Patrol's successes on the border. But, we must not 
forget that personnel and technological capabilities are an 
absolutely vital part of integrated border control strategies.
    Barriers in infrastructure--along with significant 
increases in Border Patrol personnel, improved detection and 
surveillance capabilities, and the strategic deployment of 
resources to support iterative border control strategies--have 
gotten us to where we are: improved control of the border. But, 
again, I reiterate, more needs to be done.
    President Trump has directed the Secretary of DHS to 
develop a strategy to obtain and maintain complete operational 
control of the Southern Border. I believe walls, fences, and 
border infrastructure will definitively be a part of what the 
Border Patrol will be identifying as current requirements. The 
Secretary's findings should inform what types of barriers 
should be constructed, where they should be constructed, and 
construction priorities.
    There are multiple threats that must be addressed at the 
U.S.-Mexico border. These include trafficking of drugs, 
trafficking of arms, contraband within legal trade, and money 
laundering. The criminal organizations that work to defeat our 
border enforcement efforts are too often solely looked upon as 
drug-smuggling and human-smuggling organizations.
    These same organizations will provide illegal access into 
our country for anyone willing to pay the going price. Our 
military men and women are fighting the enemy on foreign 
ground. We have hardened our airports and ports of entry, 
making it extremely difficult to get to us by air. But, we must 
act responsibly in addressing our borders.
    Ladies and gentlemen, since the Border Patrol began 
building infrastructure--fences, walls, and vehicle barriers--
along our Nation's border, there has been an endless debate on 
its value. Border Patrol agents and the Border Patrol as an 
organization all agree that properly constructed, placed, and 
supported physical infrastructure is essential to border 
security.
    Thank you for this opportunity, and I look forward to 
answering any questions that you might have of us.
    Chairman Johnson. Thank you, Mr. Aguilar.
    Our next witness is Ron Colburn. Mr. Colburn is the former 
Deputy Chief of the U.S. Border Patrol. Mr. Colburn served in 
that role from 2007 to 2009. He helped oversee the effort to 
double the size of the Border Patrol and the deployment of more 
than $1 billion worth of technology and tactical infrastructure 
designed to bolster border enforcement efforts. Prior to being 
named Deputy Chief, Mr. Colburn served as the Chief Patrol 
Agent of the Yuma Sector, where he made significant 
improvements toward securing that sector. Mr. Colburn.

 TESTIMONY OF RONALD S. COLBURN,\1\ FORMER DEPUTY CHIEF OF THE 
U.S. BORDER PATROL AT U.S. CUSTOMS AND BORDER PROTECTION AT THE 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Colburn. Thank you and good morning. Chairman Johnson, 
Ranking Member McCaskill, and distinguished Members of the 
Committee, I am honored to be here, today and humbled to be 
invited by you to testify before the Homeland Security and 
Governmental Affairs Committee (HSGAC) regarding ``Fencing 
Along the Southwest Border.''
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Colburn appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    I will begin by describing some of my experience with and 
knowledge of the history of tactical infrastructure--also known 
as fences and barriers--pertaining to the international 
boundary between the United States and Mexico.
    Thirty-five years ago, in southeastern Arizona, I was 
building border fence with a post hole digging tool, a wire-
stretching tool, a heavy coil of barbed wire, and a very good 
pair of leather gloves. Alone, and with no backup, my partner 
and I dug post holes and strung wire in Douglas, Arizona--
standing just inches from Mexico.
    Three or four strands of barbed wire would not halt people 
from crossing or stop the smugglers from defeating our own 
efforts the very next night with a simple pair of wire cutters. 
But, it marked the border. It was our ``line in the sand.''
    We have come a long way since the days of steel posts and 
strings of barbed wire. In 1995, a U.S. Army construction 
battalion replaced expanded metal and chain link fencing in 
another Arizona border town, where I found myself in command. 
That year, we arrested an astounding 116,000 foreign-born 
nationals illegally attempting to cross the border in just that 
station area alone. Countless tens of thousands got away from 
our sparse staff of 62 agents. That was our ``thin green 
line.''
    Then came the attack on September 11, 2001 (9/11). After 
the horrendous, deadly attacks on American soil by foreign-born 
terrorists, the American people strongly communicated to 
Congress, to the Administration, and to the media that they 
wanted our Nation protected first and foremost at our borders.
    In 2005, I found myself serving as the Chief of the Yuma 
Border Patrol Sector in southwestern Arizona and the very 
southeastern portion of California. About 450 agents covered 
that approximately 125-mile stretch of the border. They were 
working 8 to 12 hour shifts--overlapping--covering the border 
24/7.
    During my first year as the Chief of Yuma, we arrested 
138,000 foreign-born nationals attempting to cross the border 
illegally from Mexico. They crossed under the cover of darkness 
and during broad daylight. They crossed in vast and 
overwhelming numbers. They crossed into Yuma and the urban 
centers where they could escape quickly. And, they were led by 
unscrupulous smugglers who brought them across the Colorado 
River--a water boundary--remote desert, and towering mountains, 
where the temperatures can skyrocket to 120 degrees or more.
    We seized nearly 36,000 pounds of drugs that were driven or 
backpacked into the United States just in Yuma alone. There 
were over 200 attacks by border bandits recorded by us that 
year. We counted 1,800 victims, mostly from Mexico. The 
criminal gangs and lone bandits from Mexico preyed on their 
own--robbing, raping, and murdering fellow countrymen, 
including women and children. Many of these people were staging 
to enter from Mexico or in the process of entering illegally, 
led by guides that were actually working in concert with the 
bandits and sharing the take from those robberies and assaults. 
Assaults on border law enforcement personnel numbered in the 
hundreds just in that stretch of the border. Yuma had become 
the most dangerous stretch of the border at that time.
    So, in response to this, the Yuma Sector became the ``proof 
of concept'' that America can protect and control its border 
when the proper mix of resources are placed almost 
instantaneously. The Secretary of Homeland Security prudently 
and thoughtfully exercised his legislated waiver authority in 
consideration of certain environmental regulations, which posed 
a hindrance to construction initiatives.
    Nine hundred men and women from the National Guard, 
supporting ``Operation Jump Start,'' descended upon the border 
in the Yuma area. We built border barriers--fence--along the 
entire stretch of the Yuma Sector. The Army Corps of Engineers 
and contractors built double pedestrian fencing, vehicle 
barriers, and what is known as ``floating fence'' in the 
Imperial Sand Dunes Park region. The style and material used 
depended on the geographic and demographic challenges. We 
doubled the Border Patrol Agent manpower, and we added sensors 
and communications technology.
    Violent bandit activity went from that record 200 attacks 
the year before--and over 1,800 victims--to zero after the 
fence was built in Yuma. The number of violent assaults on 
Border Patrol Agents also declined drastically.
    Before fence, Yuma Border Patrol recorded 2,706 ``drive-
throughs'' in a 1-year period. This is where smugglers load up 
vehicles with their contraband--be it drugs, people, or 
weapons--and simply drive across the open, unfettered border. 
They cross the river in shallow places, destroying wilderness 
landscape along the way. They lose themselves in urban areas 
and traffic once reaching paved roads. And, of those 2,706 
``drive-throughs'', we recorded a mere 13 captures and 
``turnbacks.'' All of the rest got away, and we do not know 
what they brought into the United States.
    But, after fence, the next year, only six vehicles even 
attempted to enter the United States at any place other than a 
designated port of entry--and none of them got away. We 
captured or turned back all of them. So, it went from 2,706 
down to 6. Impressive.
    By 2008, Yuma Sector arrests of illicit border crossers and 
traffickers had dwindled, from over 138,000 my first year there 
as Chief down to 8,363. The known attempts to enter and the 
``got-aways'' dwindled to an equally minimal number, compared 
to the hundreds of thousands that entered and evaded arrest in 
the previous years.
    I do encourage you to ask those Border Patrol Agents in the 
field. They know. I recently completed a comprehensive tour of 
the border, myself, in South Texas, receiving robust ``state of 
the border'' briefings and updates by several Border Patrol 
Chiefs and their staffs. I have spoken with the majority of 
Border Patrol leadership that covers the Southwestern Border in 
recent days.
    The bottom line: When I ask them about fence, every one of 
them responds: ``Yes, build new barriers where needed, improve 
existing fence, and maintain timely repairs when breached by 
criminals or damaged by the elements.''
    Threats change. The transnational criminal organizations 
(TCOs) simply will not go away. They try methods to defeat the 
fence, but it persistently impedes their ease of entry and 
their ability to quickly ingress into border communities and 
the interior of the United States. It gives the protectors of 
our borders the time to detect and respond to that illegal 
activity. It preserves the environment in the border wild 
lands.
    This system-of-systems approach, implemented broadly and 
rapidly, is what makes tactical infrastructure--border fence--
so valuable as a part of the solution.
    Thank you, esteemed Members of the Committee. God bless the 
men and women of the U.S. Border Patrol, and I remain ready to 
continue this dialogue.
    Chairman Johnson. Thank you, Mr. Colburn.
    Our final witness is Dr. Terence M. Garrett. Dr. Garrett 
currently serves as professor and chairman of the Public 
Affairs and Security Studies Department at The University of 
Texas Rio Grande Valley (UTRGV). He has authored numerous 
publications on eminent domain. Dr. Garrett is a military 
veteran and received the National Defense and Air Force 
Achievement Medals for his service. Dr. Garrett.

TESTIMONY OF TERENCE M. GARRETT, PH.D.,\1\ PROFESSOR AND CHAIR, 
PUBLIC AFFAIRS AND SECURITY STUDIES DEPARTMENT, THE UNIVERSITY 
                   OF TEXAS RIO GRANDE VALLEY

    Dr. Garrett. Good morning, and thank you, Chairman Johnson, 
Ranking Member McCaskill, and the rest of the distinguished 
Senators on the Committee for inviting me here, today to speak 
to you about the topic of fencing along the Southwest Border. 
Please note that my testimony and other remarks today before 
you are my responsibility and may or may not reflect the views 
of and are independent of my employer, The University of Texas 
Rio Grande Valley.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Garrett appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    So, one of the things I am interested in discussing, first 
off, is the cost to the U.S. taxpayer for the border wall 
itself. I have seen reports anywhere between a few billion 
dollars up to $40 billion, in a Massachusetts Institute of 
Technology (MIT) story that was printed by the New York Times.
    The public of the United States is not in favor. The Pew 
Research Center shows that 39 percent of those polled were in 
favor of a fence or thought the wall was important to build, 
while 59 percent did not think the wall was important. The 
final cost to U.S. taxpayers for the construction of Trump's 
border wall remains to be seen. It will be up to you, of 
course.
    Bids will likely have to be extended--and they have been--
for wall building contractors to develop a clearer 
understanding for government officials in charge of the 
project.
    Now, I can tell you directly about past experience with the 
building of the wall in the Rio Grande Valley, as an example of 
this. In the past, government contracts of now-existing border 
fence placements illustrate how corporations have benefited 
from the building of the border fence. Boeing's Secure Border 
Initiative network (SBInet), for example, received $7.5 million 
per mile--out of 110 miles--for constructing an 18-foot-high 
fence in the Rio Grande Valley (RGV) during the period of 2006 
to 2009.
    In South Texas, the border fence was placed in areas where 
wildlife refuges, landowners, farmers, and ranchers were 
located, resulting in properties being apprehended by 
provisions of the Secure Fence Act of 2006, which was made 
reference to.
    So, the next thing I want to talk to you about is the 
account of eminent domain issues at the university I was at 
previously, the University of Texas at Brownsville and Texas 
Southmost College (UTB/TSC). I have archived Dr. Juliet 
Garcia's personal statement archived at the University of Texas 
(UT). I am going to read some pieces from it.
    The President of the University of Texas at Brownsville and 
Texas Southmost College, Dr. Juliet Garcia, refused to sign a 
U.S. Customs and Border Protection document requesting right of 
entry in October 2007. She did not sign the document for the 
following reasons:
    First, there was a risk to our property investment, because 
the government sought access to land from levees to buildings 
in the very heart of our campus, adjacent to the student union 
and the Life and Health Sciences building. The right of entry 
was meant to support preparations for the building of a fence 
that would jeopardize campus security.
    And, on that point, Mr. Ben Reyna, formerly of the U.S. 
Marshals Service, was our adviser on this.
    There had been no opportunity for genuine public input. 
UTB/TSC has become a key player in the promotion of industry, 
especially ecotourism and reclamation of important wildlife 
areas, inclusive of thousands of acres of the Bahia Grande 
area. Many have worked for decades to design a campus that is 
respectful of the natural and rich environment of this special 
ecological zone.
    Finally, the right of entry jeopardized the important 
historical heritage of the campus. The university campus 
encompasses several significant historical sites, including 
historic Fort Brown and Fort Texas.
    In January 2008, UTB/TSC was sued in Federal court by the 
Federal Government. On July 31, 2008, a final agreement was 
reached with DHS. CBP dropped condemnation actions. The 
university enhanced its own fencing, a 10-foot-high fence with 
high-tech devices--paid for by the State of Texas, by the way--
and agreed to establish a center to study border issues, 
including security.
    I was part of President Garcia's strategy team, and we went 
to Rancho El Cielo, which is a biological research station 300 
miles south of Brownsville, Texas--near Gomez Farias, Mexico--
along with UTB/TSC faculty and administrators and UT System 
attorneys. We considered what we had accomplished, in terms of 
winning a victory, we thought of as being in the best interests 
of the students, faculty, and citizens of South Texas. However, 
other citizens along the Rio Grande did not fare as well.
    DHS produced a document entitled, ``Environmental Impact 
Statement for Construction, Maintenance, and Operation of 
Tactical Infrastructure for the Rio Grande Valley Sector,'' 
dated November 2007. This document laid out the strategy for 
land condemnation proceedings against the citizens of the Rio 
Grande Valley. The fence went primarily in areas where 
landowners were economically--mostly citizens whose primary 
language was Spanish and who had lower levels of education 
attainment. Wealthy landowners, whose primary language was 
English and had higher education levels, were spared, and this 
was brought out in a Washington Post report. And, we had 
faculty, Jude Benavides and Jeff Wilson, who conducted a 2010 
demographic study on disparities associated with the proposed 
U.S.-Mexico border wall in Cameron County, Texas, in 
``Southwestern Geographer'' in 2010, and they found out that 
there was collusion to actually go after the poor, who would 
not resist.
    Judge Hanen, as mentioned previously--320 eminent domain 
cases wound up in his court, and 91 remain open. When Trump 
signed his Executive Order last month, calling for his big, 
beautiful wall, Hanen knew what that would mean. As he said to 
National Public Radio (NPR): ``What I thought was, `Oh, this is 
going to be a lot more work for us,' Hanen said. It is going to 
be a lot of headache. The people in South Texas--there are a 
lot of hard feelings about the wall.''
    My time is running out, but I have a few quotes here.
    ``You show me a 50-foot wall, and I will show you a 51-foot 
ladder at the border. That is the way the border works.'' that 
is from Janet Napolitano, former Governor of Arizona, in 2005.
    Deputy spokesman for the National Border Patrol Council 
(NBPC) and Local 3307, Rio Grande Valley, Chris Cabrera, 
recalled recently: ``We came with this 18-foot wall, and the 
very next day they had 19-foot ladders. It got to the point 
where we had so many ladders at the station that they told us 
to stop bringing the ladders in. It was just insane, the number 
of ladders. We had hundreds upon hundreds.''
    Cameron County Sheriff, Omar Lucio, says, ``It is a waste 
of money. It is not going to work. I do not care what Trump is 
saying.''
    I will stop at this point.
    Chairman Johnson. Thank you, Dr. Garrett.
    Senator McCaskill. Thank you.
    Chairman Johnson. Let me first start with cost. I hear a 
lot of estimates, and, again, they are all projections. But, 
let us take a look at some actual costs. Again, I will refer 
people to our Committee's report\1\ on my trip to Israel: 143 
miles worth of fence, constructed between 2011 and 2013, at an 
average cost of $2.9 million per mile.
---------------------------------------------------------------------------
    \1\ The Majority staff report appears in the Appendix on page 76.
---------------------------------------------------------------------------
    Now, you can have some inflationary cost increases, but, 
again, $2.9 million per mile. It is a pretty effective fence--
from 16,000 illegal crossings down to 18--1-8.
    By the way, if you would like your Minority report to be 
entered into the record, I am happy to do so. I know you are 
talking about 270 acres of land being purchased at an average 
cost of about $42,600. Depending on how you purchase that 
land--whether you do it in furlough versus chain--660 feet by 
66--or square 
acres--somewhere the cost per mile of acquiring that land--
based on that, it would be $340,000 to $1 million. So, tack on 
$1 million to 2.9 for the total cost of a 2,000-mile wall--and 
I do not think anybody here in this hearing room is--maybe they 
are--suggesting 2,000 miles. We are looking at the right kind 
of fencing in the right places. But, even that would be less 
than $8 billion--somewhere between $5 and $8 billion. So, 
again, I want to be talking about real costs.
    Mr. Aguilar, the 650 miles of current fencing--again, I am 
waiting on the study, and it will be interesting when we have 
real information from DHS with their evaluation and what the 
real recommendation will be. Can you just give me your 
evaluation of the current fencing? About 350 miles of that is 
pedestrian fencing and about 300 miles is vehicle fencing. How 
good is it? How much needs to be replaced? In your estimation, 
how much more would need to be built?
    Mr. Aguilar. So, the existing fence right now has been 
absolutely critical to get us to where we are today--at the 
level of control that exists along our border with Mexico. But, 
again, I need to reiterate that it is the fence, the 
technology, and the personnel that is needed in order to be 
responsive to any kind of breaching attempt that is done--
whether it is with a 19-foot ladder or otherwise--``otherwise'' 
being the tunneling, the ultralights flying overhead, the 
catapulting that is happening, and the bridging of the fences. 
All of these things are, in fact, happening.
    We cannot forget, though, that the purpose of the fence is 
to deter, to impede, and to, basically, create more time and 
distance for the officers to be able to responsibly react and 
take the actions necessary.
    So, of the existing fence that is out there now, there is 
quite a bit of it that needs to be replaced, and the reason for 
that is what Chief Colburn and I as well as other Border Patrol 
Agents did. We actually built those fences back when we did not 
have the support of the American public, as I put it. So, a lot 
of it needs to be replaced.
    Now, as to how much is required, that is going to depend on 
the chiefs that are in the field right now, which is exactly 
the position that we took--that I took as the National Chief of 
the Border Patrol--I was going to chiefs in the field, asking 
them what they needed, where they needed it, what the type of 
fencing was, and what the purpose and rationale was, taking 
into account the 
very difficult decisions that we knew were going to be taking 
place--eminent domain--heart-wrenching. I was born, bred, and 
raised in Texas--not unlike Montana, not unlike Oklahoma, not 
unlike Missouri, where some of these are very touching 
situations and very hard.
    But, I have to say that the oath that people like Mr. 
Colburn and I took was not to Texas, was not to South Texas, 
and was not to southern Arizona. It was to the country. It was 
what was most needed to be done to protect the country--the 
United States--in the best way that we could. That is what we 
are looking for now to move forward.
    Chairman Johnson. You talked about the goal being to 
impede--to deter. In Israel, their fence is about a 15-foot 
fence, and the whole design--first of all, you can see through 
it, which is an important design consideration.
    Mr. Aguilar. Yes.
    Chairman Johnson. I think that is important. But, the whole 
purpose of it was to give them about a 5-minute response time.
    Mr. Aguilar. Exactly.
    Chairman Johnson. And, that is what they have: a 5-minute 
response time. So, it is built with very thick rebar. It cannot 
be cut through and it cannot just be clipped. You would have to 
have a pretty good saw. It takes time, so that you have enough 
time for the border patrol in Israel to respond. Is that 
basically the primary goal of the fencing?
    Mr. Aguilar. Absolutely, it is to deter and impede the flow 
and create that time and distance, which are critically 
important.
    Now, depending on where you are building the fence, it 
could be minutes, it could be hours, and, in some cases, the 
Border Patrol could need longer than that to impede, in order 
to take the appropriate actions.
    Chairman Johnson. You are talking about the specific 
challenges in Texas. I am not going to identify the Members of 
Congress, but I have spoken with Texas Congress Members in the 
House, who say that levees would really work well and are 
actually supported by the public. Can you speak to that as part 
of the solution?
    Mr. Aguilar. That was a very unique situation that we took 
in Texas. The levees, as we probably all have heard, are 
critically important for the flooding of the Rio Grande. And, 
the actions that we took as part of the Border Patrol back 
then--the sitting chiefs basically identified the Rio Grande at 
South Texas as requiring fencing. We worked with the local 
community on an ongoing basis and spoke to them at length about 
what could be done.
    What we literally did is, we took the existing dirt levees, 
cut them down the middle, and abutted against them--reinforced 
the existing levees with concrete--in some areas as high as 20 
or 30 feet. Above those levees, after we set that abutted 
concrete, we built the walls that needed to be built on top of 
that to continue from the deterrence perspective.
    It worked very well. It was a community effort--community 
of the locals, community of the Border Patrol as an 
organization, and DHS.
    Chairman Johnson. So, do you think that would be a solution 
in larger areas of Texas?
    Mr. Aguilar. There will be some areas that can be 
accommodated like that. One of the things that I am absolutely 
sure that DHS, CBP, and especially the Border Patrol will be 
doing going forward on this is working with the local 
communities--as we did back then.
    Dr. Juliet Garcia, I worked with her personally on an 
ongoing basis. I met with her three or four times at the 
University of Texas in Brownsville on building and 
accommodating what we eventually built at UTB.
    Chairman Johnson. Mr. Colburn, in your testimony, you are 
relating direct experience, similar to Israel--16,000 to 18--
similar types of dramatic numbers, in terms of fencing barriers 
actually working. I have a little time left here. Of the 650 
miles, how much do you think needs to be replaced? How much 
more do you think has to be built? And, we are not going to 
hold you to it, because we are going to wait for the DHS 
study--but, some sort of general feel.
    Mr. Colburn. I will answer it in two parts. First, the 
collection of chiefs of the nine Southwest Border sectors all 
jointly say that they need more fencing, as well as repairs and 
improvements on existing fencing.
    That said, just to name some mileage in Yuma Sector--the 
sector that I served for a period of time as Chief--when the 
fence was started--they currently have over 63 miles of primary 
fence and 9 miles of what is called secondary fence behind some 
of that primary fence. They have over 28 miles of all-weather 
roads. So, when we talk about infrastructure, sometimes it is 
not just a barrier. It is to give access.
    We added nearly 9 miles of permanent lighting, which 
actually the community of San Luis Rio Colorado, Mexico, was 
very appreciative of--crime went down in Mexico as well. We 
added 44\1/2\ miles of permanent vehicle barriers of a couple 
of different styles, and we even had 9 miles of tertiary 
fence--in the flanks of the San Luis port of entry, three rows 
of fencing.
    That just gives an example of what is necessary. I think 
that the gates and bridges that were built along the Colorado 
River, where there are also ditches and irrigation usage of the 
water for farming, we added 18 vehicle gates and one bridge to 
the bridges already existing. We even added water wells for 
access by the agricultural land users.
    Chairman Johnson. So, basically, what you just rattled off 
there and what I have in my briefing--about a couple hundred 
miles of different forms of fencing--how long is Yuma Sector in 
total?
    Mr. Colburn. 125 miles.
    Chairman Johnson. OK.
    Mr. Colburn. So, because it is overlapping, it exceeds 
that. And, uniquely, the Imperial Sand Dunes National Monument 
area has the floating fence, and I know you have probably--you 
can go online and see. It is quite unique and quite effective. 
In 2008, we lost a brave Border Patrol Agent, Luis Aguilar, 
because there was no fence.
    I was quoted by the Army Corps of Engineers, when they 
published their book on fencing, on the front cover, as saying, 
``That will never happen again there,'' because of that 
floating fence.
    Chairman Johnson. By the way, Israel has technology for 
sand as well. It works quite well. Senator McCaskill.
    Senator McCaskill. Thank you.
    I think additional fencing is essential and repairing 
fencing that is in place is essential, but a couple of things 
came out in the Chairman's questions, and one is the issue of 
situational awareness--that if you cannot see through and you 
do not have the technology to look over, then you are really 
handcuffing, in my opinion--and I would like to know if you, 
Mr. Aguilar, and you, Mr. Colburn, would agree that you are 
handcuffing the Border Patrol Agents, because they cannot see 
and respond quickly enough if, in fact, this is a concrete wall 
that you cannot see through and cannot see over. Would that be 
a fair assessment, as to why we need to be aware of situational 
awareness as we make these decisions?
    Mr. Aguilar. Situational awareness at the border, 
regardless of what kind of infrastructure is built south of the 
border, in the case of Mexico, is absolutely essential for the 
safety of the officers, for reactionary time, for planning, and 
for taking the appropriate actions at the right time. That is 
why you will hear every Border Patrol Agent say that there will 
definitively be a need for infrastructure supported by 
personnel and supported by technology.
    Senator McCaskill. Technology.
    Mr. Aguilar. There is technology now that can give us that 
overhead capability. There are tethered drones that will stay 
up for weeks at a time that will give you a view, not just of 
the wall, but north and south as to what is coming at you, the 
actions to take, and the safest actions to take.
    Senator McCaskill. And, when they cannot fly, they can use 
those elevated night vision goggles--even at night--to get the 
situational awareness they need.
    Mr. Aguilar. That is correct. Yes, ma'am.
    Senator McCaskill. That is the technology we are talking 
about.
    I would point out that the prototypes that are being built 
are walls. We took $20 million out of the technology fund that 
would have provided more of that situational awareness, and we 
are building prototypes of walls--not fencing, but walls. And, 
what I am concerned about is that we are headed down a path 
toward an outcome without fully considering what would be the 
most effective use of the American taxpayer dollar, as it 
relates to securing the border. And, that is what I have tried 
to hammer on--and I think the Chairman and I agree on a lot of 
that.
    Let me talk to Dr. Garrett for a moment about land 
acquisitions. Is the government likely to run into resistance 
if they attempt to condemn more property from Texas landowners?
    Mr. Garrett. Almost certainly. In fact, I did not get all 
of the way through, but when you are talking about River Bend 
Golf Course, which is a retirement community with hundreds of 
homes--and very valuable--we call them ``winter Texans''--when 
they come down. They will probably fight it, even though they 
came out in the Washington Post and the owners said, ``Well, we 
will try to work with CBP.'' But, basically, the implication 
was, ``We will fight them.'' So, they have the resources to 
fight, and that was kind of the point where I was going with 
the university case. There are other places along the border--
Cimarron Development south of Mission, Texas--that previously 
did not get the wall. Also, you are talking about hundreds of 
more miles with private landowners that have yet to be----
    Senator McCaskill. And, they are all entitled to a jury 
trial, correct?
    Mr. Garrett. They are all entitled to a jury trial. And, if 
I can say something on the levees--if I can add something--
Kristian Hernandez, in ``the Monitor,'' he looked at the cost, 
and he actually quotes Representative Michael McCaul, the 
Chairman of the House Homeland Security Committee, which 
basically--first of all, Ramon Garcia, the county judge, and 
the mayor of McAllen came out with a letter that said, in 
effect, ``We are against the wall. However, if you are going to 
build a wall, we would like to have levee infrastructure 
similar to what we had in 2007.''
    Now, we are talking about over 30 miles of levee 
infrastructure, according to the article, and it would cost $12 
million per mile for a total cost of $378.93 million out of 
President Trump's $2.6 billion proposal.
    Senator McCaskill. And, that is just for levee in that 
one----
    Mr. Garrett. That is just for the levee sections in Hidalgo 
County.
    Senator McCaskill. OK. Historically, has the government 
underestimated the time and the expense of land acquisition, 
when it comes to acquiring the land necessary to build 
barriers?
    Mr. Garrett. Yes, absolutely. It has been over--Judge Hanen 
has had many years of cases before him. I was asked by Time 
magazine a few years ago about it, and the needle has not moved 
very much. And, the problem for the judge is, eminent domain 
cases take a lot of his time, and it appears to me that he also 
deals with criminal activities along the border. Why is he 
spending time and taxpayer money defending--or working with 
lawsuit defenses on behalf--for the plaintiffs, when, in fact, 
would he not be better spending his time dealing with people 
who are apprehended and engaged in criminal activities on the 
border?
    Senator McCaskill. What can you tell me--the fencing that 
has been installed in Brownsville, it is right on the southern 
tip of Texas. It must be, obviously, a dangerous place, because 
it is so close to the Mexican border. What is the security 
situation like in Brownsville?
    Mr. Garrett. Brownsville, itself, is the least criminal-
ridden or, violent community in all of Texas, according to the 
``Texas Tribune.'' They looked at U.S. Department of Justice 
(DOJ) data, and actually, corresponding roughly with about the 
time of the war on drugs in Mexico by President Felipe 
Calderon, the border cities began to see a precipitous drop in 
violence within those communities. So, how can you prove the 
fence works when, in fact, we had a partner in Mexico, dealing 
with some of these criminal organizations? And, what has 
happened is, crime has dropped on the U.S. side of the border.
    Senator McCaskill. When you were Commissioner of Customs 
and Border Protection, Mr. Aguilar, I think you ranked 
personnel first, infrastructure second, and technology third. 
It is my understanding that you would now rank it: technology 
first, personnel second, and infrastructure third?
    Mr. Aguilar. The ranking now is technology definitively 
first just about anywhere along the border.
    Senator McCaskill. Right.
    Mr. Aguilar. Infrastructure and personnel will be going 
back and forth depending on the area----
    Senator McCaskill. Where you are.
    Mr. Aguilar [continuing]. Where you are going to be placing 
it.
    Senator McCaskill. Would you agree with that assessment, 
Mr. Colburn?
    Mr. Colburn. Yes. To borrow a famous two-word term from 
many lawyers, ``It depends.'' It really does depend on the 
topography, the demographics, the geographics, and also the 
climate. So, there are times when manpower has the greatest 
value assigned, other times where the tactical infrastructure 
does, and other times when it is technology.
    It is a chain that cannot be broken, though, so without the 
tactical infrastructure, we will still not have accomplished 
border security. With it--along with the technology and 
manpower--I feel that we will finally see that light at the end 
of the tunnel, and we can secure all of the border--not just 
Yuma, not just other stretches, but all of it.
    Senator McCaskill. Thank you. Thank you all.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Senator McCaskill. Just 1 second. Could I ask that the 
report be issued into the record\1\--the one you referenced?
---------------------------------------------------------------------------
    \1\ The Minority report appears in the Appendix on page 181.
---------------------------------------------------------------------------
    Chairman Johnson. Sure.
    Senator McCaskill. Thank you. Sorry, I forgot.
    Chairman Johnson. Without objection.
    Senator Lankford. Mr. Colburn, you have had a unique 
experience, in that you were at a location in Yuma, saw the 
high crime rate, saw the large number of people crossing 
illegally, saw the vehicular traffic, and could not do anything 
about it. A wall goes up, and then you saw the very significant 
drop in illegal crossings at that spot--as well as vehicles and 
people.
    Let me get some specific questions to you on some of this. 
What did you see as far as delays? There has been a lot of 
conversation about land acquisition. We had delays in 
construction, permitting, road access and such. What did you 
see in delays? What were the causes of those delays? And, did 
construction move in some areas, while they working out the 
delays in other spots?
    Mr. Colburn. The delays in Yuma were not as significant 
compared to, say, South Texas, and significantly, a lot of that 
has to do with the fact that, along that 125-mile stretch of 
the border, 96 percent of the land adjoining Mexico on the U.S. 
side is federally, publicly stewarded lands. So, it was the 
Bureau of Reclamation within the Department of Interior (DOI), 
it was the National Park Service (NPS), and it was the Bureau 
of Land Management (BLM). It was Department of Defense (DOD), 
with the Barry M. Goldwater Bombing Range. So, it was a variety 
of Federal and publicly stewarded land.
    That does bring in environmental considerations, but when I 
mentioned earlier about rapidly layering on manpower, 
technology, and tactical infrastructure, that is what made Yuma 
that case in point--was we were able to get that together 
quickly.
    There are places, because of private ownership--as we have 
been discussing--that are more challenging--as well as there 
are places where the terrain, geographics, and climate will be 
more costly. Levees will cost more than some of the barriers 
that we were putting in in Yuma at the tune of $1.1 million a 
mile. So, compared to the $5 million per mile in South Texas, 
it was rather efficient in the desert areas of Yuma for much of 
that part of it. Not everywhere, though. We do have roughly 20 
miles of river boundary. People forget. They think of Arizona 
as all land boundary. But, the Colorado River does separate, 
not just the States of California and Arizona, but also Baja 
California Norte and Sonora. So, it is an international 
boundary marked by water.
    What the smugglers were doing there--they were building 
bridges with sandbags, and their engineering was amazing. 
Overnight, very squared, very level, and just inches below the 
surface of the water, so that the bridges could not be detected 
off of the reflecting angle of the sun in the early morning 
hours. They could drive a number of vehicles laden with drugs 
across in the early darkness hours. They were building those in 
one night. Talk about how sometimes you do not have a technical 
solution? Well, now they have technology that can detect it, 
and they have barriers that can keep them from freely driving 
over the levees and across the bridges.
    But, we still had to wade into the river with machetes and 
slit each bag of sand. So, as they built it during the night, 
we tore it down during the day. And, that is what finally 
defeated them. It became too cost-inefficient for the organized 
crime groups to 
continue building one overnight. So, sometimes rudimentary 
force--muscle--wading into the river with a knife and slitting 
open bags is the solution.
    As both the Chief and I have mentioned, there it is not a 
cookie-cutter solution anywhere along the border. Each sector--
even within each sector--we find different combinations of 
resources that solve that problem. But, certainly in Yuma, we 
had it easier, because of the publicly stewarded lands.
    Senator Lankford. Mr. Aguilar, talk to me about the 
technologies. That is one of the prime areas to be able to 
innovate on first. What technology is needed? And, what do we 
have that we need more of? Or, what do we not have that we need 
to put in place?
    Mr. Aguilar. The technologies have been an absolutely 
critical part of anything done anywhere along the border. The 
type of technology that we are talking about is a technology 
that will give you situational awareness--persistent 
situational awareness anywhere that agents are going to be 
interested in what is happening along the border.
    Today, we have integrated fixed towers (IFTs), which 
started way back when Chief Colburn and I were in the field. We 
have remote video surveillance systems. We have mobile 
surveillance capability systems.
    Senator Lankford. Hold on. Slow down. Towers, how frequent? 
Let us get more specific as we are talking through this. When 
you talk about towers, how frequently do you need those? You 
have a 2,000-mile border. Is that every 2 miles? Is that every 
5 miles? Or is that every 500 feet?
    Mr. Aguilar. Let me step back. Not the towers, because, 
basically, again, it goes back to the type of geography to 
decide where we are deploying the kind of capability we are 
looking for.
    In Arizona, for example, when I was the Chief of the Border 
Patrol, we lined out the exact number of towers that had a 
viewshed that had the capability to cover an entire area. But, 
along with that, we had some problems, because we had, for 
example, the Tohono O'odham Nation for 75 miles of the border 
of the Tucson Sector where I was Chief--bottom line is, we were 
not allowed, because of the sovereignty of the Tohono O'odham 
Nation, to build that type of technological capability.
    But, today, there are technological capabilities that could 
now basically give that same type of situational awareness--
tethered drones that basically are going to have viewsheds of 7 
or 8 miles wide--maybe even higher. So, in areas where we 
cannot put an integrated fixed tower or a remote video 
surveillance system--and, by the way, the integrated fixed 
towers have the capability of a viewshed of 8, 10, 12, or 13 
miles, depending on where they are placed--line of sight for 
infrared capability, line of sight for Doppler radar and line 
of sight for cameras--very high quality, high-fidelity cameras.
    So, it all depends on where you are going to be placing 
them. There are plans in place by the Border Patrol for the 
entirety of the Southwest Border.
    Now, we also have to take into account that, as an example, 
integrated fixed towers, which work very well in Arizona, will 
not work as well in South Texas. The reason for that is the 
vegetation, the density, and the triple canopies. So, all of 
those things need to be taken into account.
    But, the chiefs are aware of what they need. There are 
designs out there that, basically, have been put in place for 
that.
    Senator Lankford. Great. Thank you.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. Gentlemen, welcome this morning. 
Particularly, Mr. Aguilar and Mr. Colburn, thank you for your 
service to our country in many different roles. Dr. Garrett, 
welcome. We are delighted that you are here.
    I am channeling my father this morning. My dad used to say 
to my sister and me, when we would do some bone-headed stunt--
he used to say, ``Just use some common sense. Just use some 
common sense.'' We did not have much of it. He said it a lot.
    I am also channeling a woman who once came to one of my 
town hall meetings years ago when I was a Congressman, and it 
was on budget--how do we reduce the budget deficit, which was 
$1.4 trillion about 8 years ago. Today, it is over $400 
billion--$1.4 trillion is down to about $400 billion--still way 
too much. So, we are talking about spending money that we 
really do not have for a wall.
    But, I remember at this town hall meeting, a woman said to 
me--we were talking about whether or not revenues could be a 
part of the deficit reduction plan, and she said, ``I do not 
mind paying more taxes. I just do not want you to waste my 
money.''
    ``I just do not want you to waste my money.'' And, I am 
very mindful of that, as we think about the combination of 
tools that we use to make our borders more secure.
    Another one of my guiding principles in life is to find out 
what works and do more of that. Find out what works and do more 
of that. And, I think one of the common themes that comes from 
this discussion here this morning is that there is no one 
answer. There may be several answers. There may be several 
answers for the same area of the border.
    Another point that has not been mentioned--one of the 
reasons why, I think, we saw, Mr. Colburn, that precipitous 
drop in illegal immigration in the Yuma Sector is, the folks 
from Mexico are no longer coming to the United States in such 
great numbers. In fact, as you know, there are more people 
going back into Mexico from the United States than there are 
Mexicans coming into the United States, which is a big help, 
and that says to me--well, what are some ways that we could 
convince people--where most of the illegal immigration is 
coming from today--what could we do to convince people in 
Guatemala, Honduras, and El Salvador not to come up here. And, 
one of the things we could do, as the Chairman knows and as 
Claire knows--the reason why they come to this country is 
because their lives are miserable. Their lives are unsafe. 
There are conditions of misery. We are complicit in their 
misery, because of all of the drugs that we buy that are 
trafficked through their countries. Well, why do we not do 
something to help in that regard?
    There is help on the way. It is called ``Alliance for 
Prosperity,'' and it is literally taking ``Plan Colombia'', 
something that has worked over the last 20 years, and 
replicating it, with respect to those 3 countries. The funding 
for that plan is, I do not know, about $500 to $600 to $700 
million a year. If we would just take half of the money that we 
are talking about spending for a wall, we could fund the 
``Alliance for Prosperity'' for the next two decades, which is 
how long we have been funding ``Plan Colombia'', which has 
worked.
    The last thing I want to say is about illegal immigration 
reform--immigration reform. I am not interested in, basically, 
saying to people that are here illegally, ``Well, you can just 
stay. We will just provide immunity for you guys and let you 
stay.'' I am not interested in doing that. Most Americans are 
not interested in doing that. We passed comprehensive 
immigration reform here in the Senate, oh, gosh, 5, 6, 7, 8 
years ago that did not do that, but, actually, did give people 
that were here who played by the rules, got in line, worked, 
paid taxes, and spoke English--we gave them a pathway to a 
legal status. I think that probably makes some sense. I think a 
guest worker program makes some sense. And, Senator Johnson and 
I talked about this more than a few times. A lot of the people 
that are down there, they want to come here and go to work and 
want to be able to go back home--maybe for good--and we do not 
give them a very good opportunity to do that, because when they 
get over here, they get stuck and they cannot go back.
    The last thing I want to say is on force multipliers. We 
have mentioned some of the force multipliers that make sense, 
and I have been down on the border from San Diego, where I used 
to be stationed in the Navy, all of the way almost to 
Brownsville, where we used to fly out of--Brownsville and 
Kingsport, but--Kingsville. But, I have talked to hundreds of 
Border Patrol officers and said, ``What do you think we ought 
to be doing?'' And, I am just going to mention some of the 
answers they have given me--and some of them we have heard 
here, today.
    Not just helicopters, but helicopters are great. Not just 
drones, but drones can be great. Not just fixed-wing aircraft, 
but they can be great. But, let us make sure they have the 
right kind of surveillance equipment inside of the aircraft--
the Vehicle and Dismount Exploitation Radar (VADER) system, 
which is actually one of a number of packages that works very 
well. But, I used to go out in Navy 
P-3 Orion airplanes out over the ocean with my crew--a 13-man 
crew--looking for people that were lost, ships that were sunk, 
or whatever, with binoculars. Good luck. And, when we have a 
great system, like VADER, and we have the aircraft, the drones, 
and the fixed-wing aircraft, for God's sake, let us make sure 
the surveillance aircraft is equipped with that technology.
    What have I heard that works? Drones with proper 
surveillance packages. Horses in areas with high grass. And, 
helicopters, as I mentioned earlier. Motion detectors sometimes 
make a lot of sense. Mobile and stationary observation towers 
with the right kind of observation surveillance equipment on 
board.
    Better intelligence. We have not talked about better 
intelligence, but that is certainly a good point. Mobile and 
stationary observation towers. Cooperative agreements with 
landowners along the border. Someone mentioned lighting. Those 
are all things that work someplace along the border.
    And, I have just given you a stream of consciousness here. 
Mr. Aguilar, just react very briefly to some of what you have 
heard. Does any of it make sense?
    Mr. Aguilar. Everything that you have just lined out there, 
plus more, Senator, is exactly what any Border Patrol Agent 
that has served on our Southern Border--or our Northern Border, 
for that matter--will identify as needs and requirements. It is 
how you put that package together that is critically important. 
It is those capabilities added--placed against the requirements 
that the agents in the field have.
    So, yes, absolutely all of those things, plus other things 
that are constantly being developed--situational awareness, for 
example. Situational awareness capabilities that exist that 
should be applied so that--terrain change, as an example. From 
an intelligence perspective, agents need to know when, in a 
remote or very rural area of operation, terrain change has 
occurred--to notify them that, ``Hey, you need to be paying 
attention to this and taking those kinds of efforts.''
    Senator Carper. Good. Thank you.
    Mr. Colburn, one of the things I did not mention is, walls 
work. I have been to Israel. They work. But, walls can be 
tunneled under and climbed over. Fences work, and, as we have 
gone along, we have figured out how to make better fences. So, 
I am not saying that those are bad ideas. In some places, they 
work great. But 1,900 miles of walls? Really?
    Mr. Colburn, I am almost out of time. Please, briefly.
    Mr. Colburn. One other item that I----
    Senator Carper. I just wanted you to react to my stream-of-
consciousness ideas--force multipliers.
    Mr. Colburn. You have listed some very good ones, and your 
sources being the Border Patrol Agents--as I said in my opening 
remarks, ask the agents, and they will tell you.
    Consequences--a system of consequences is extremely 
important. If there are no consequences for illegal acts, then 
it encourages return.
    Deterrence. The end game, of course, in the end, is to make 
the criminal organizations that now own the movement of people 
along the border--and drugs and weapons and cash--and create an 
environment where they believe they can no longer get away with 
it.
    Senator Carper. OK.
    Mr. Colburn. And, you do that through all of those kinds of 
resourcing, and the right amount of it in the right place.
    Senator Carper. Thank you, Mr. Colburn.
    Very briefly, Dr. Garrett, please. Just react to the 
diatribe I just went through.
    Mr. Garrett. Yes, I would say I have a colleague, Dr. 
Correa-Cabrera, who is over at the Woodrow Wilson International 
Center for Scholars. Last year, she was on a $200,000 U.S. 
State Department grant studying a human-trafficking route--on 
the eastern route from El Salvador, Guatemala, and Honduras 
through Mexico. She is a great expert. She actually interviewed 
traffickers in prisons in those countries and provided a report 
to the U.S. State Department. That kind of intelligence, 
getting to your point, is very valuable, I would think, in 
terms of understanding the connections between transnational 
criminal organizations, which have begun diversification--which 
is another one of her specialty areas--in drug trafficking, in 
human trafficking, and in petrochemicals--hydrocarbons.
    So, it seems to me, we are doing our country a disservice 
if we do not utilize resources like that--like the Wilson 
Center and like U.S. State Department grants. Those are the 
kinds of things that we need to have to improve our intel.
    Senator Carper. All right. I am out of time. Thank you, Dr. 
Garrett.
    I would just say, in conclusion, Mr. Chairman and 
colleagues, we have a lot of tools in our toolbox. We need to 
be using them. A wall and a fence, is that part of the toolbox? 
Yes, it is. But, to spend $15 to $25 billion, at a time when we 
have a budget deficit of over $400 billion, is unwise, is 
unneeded, and is unaffordable.
    Thank you so much.
    Chairman Johnson. Just really quickly--as I stepped out for 
a couple of minutes--in your stream-of-consciousness diatribe--
your words, not mine--did you mention cutting down vegetation, 
like the carrizo cane? Was that part of the----
    Senator Carper. I did not. That is one of the--I think, as 
Mr. Aguilar or somebody said, there are other ideas. I think, 
in many places, that is good.
    Chairman Johnson. That would be a good one. Senator 
Heitkamp.
    Senator Carper. Let us not use Agent Orange. Been there, 
done that. [Laughter.]
    Chairman Johnson. We will use some good tools.
    Senator Carper. Very good.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    Let me first start out by saying that there has been--we 
have had a number of kind of hearings and discussions. There 
has been no one to come before this body and suggest that we 
need to build a concrete wall completely across the border. No 
one. Not one person--no matter what political persuasion and no 
matter how they represented their political thoughts in the 
last election.
    So, I just wish we could get beyond it, so we could 
actually talk about what we need to do on the border, because 
all of us share the same goal, which is border security. Border 
security protects, not only this country, but has a way of 
protecting people to the south. I do not think there is any 
doubt about it.
    And so, I have visited the Southern Border--actually, I am 
known kind of on this Committee as being the person who always 
reminds people that we have a very large Northern Border that 
we need to pay attention to, but I have spent a lot of time on 
the Southern Border, and I have talked to locals and people on 
the Southern Border who think that this is crazy--what we do 
here, because no one really engages the local people, who see 
it every day, and talks to them about strategy and what needs 
to be done. And so, I want to just make that point that, as 
Senator McCaskill, the Ranking Member, I think, eloquently--
talking to the personnel who actually are responsible for 
border security--in her opening comments talked about we need 
to spend a lot more time with the people who live on and who 
study the Southern Border.
    To that end, I have a couple of pieces of testimony that I 
would like to submit for the record. One is from the Tohono 
O'odham tribe,\1\ which has people on both sides, and you know 
well the work that has been done to build relationships there. 
They are deeply concerned about whether those traditional 
collaborations will, in fact, be disrupted. They have some 
great ideas on helping with roads and with other infrastructure 
on the reservation that will help them help the Border Patrol 
and the Department of Homeland Security to secure the border.
---------------------------------------------------------------------------
    \1\ The statement of Tohono O'odham Nation appears in the Appendix 
on page 192.
---------------------------------------------------------------------------
    Also, I have a statement from Howard G. Buffett, who has 
done a tremendous amount of work, not only as a rancher down 
there, but also looking at border security and trying to 
understand all of the dynamics. And so, I would ask that these 
two documents be submitted for the record.\2\
---------------------------------------------------------------------------
    \2\ The statement of Howard Buffett appears in the Appendix on page 
188.
---------------------------------------------------------------------------
    Chairman Johnson. Sure. Without objection. But, I also just 
want to interject. When you say nobody is talking to them, that 
is what this hearing is about--and we had Howard Buffett 
testify before this Committee as well. So, we are definitely 
trying to do that--exactly what you----
    Senator Heitkamp. There is no one on this panel who 
actually is a Southern Border----
    Chairman Johnson. Well, again, we have had 22 hearings on 
this.
    Senator Heitkamp. Right.
    Chairman Johnson. So, we definitely are talking to them, 
and we will be doing that.
    Senator Heitkamp. But, would the Chairman agree that not 
one person has come in front of this Committee suggesting that 
we build a wall on the entire length of the border?
    Chairman Johnson. Again, we are discussing the challenges 
involved here, and we----
    Senator Heitkamp. And, we keep dancing around it, but the 
reality is----
    Chairman Johnson. We are talking to people on the border as 
well, because we had Howard Buffett testify before this 
Committee.
    Senator Heitkamp. We would go a lot further if we actually 
just acknowledged that there are ways to secure the border 
other than simply building a wall.
    So, I have a couple of questions. How much private land 
will need to be secured by eminent domain to build a wall along 
the entire Southern Border? Do we know?
    Mr. Aguilar. As far as mileage goes, I do not think any one 
of us would put a number on that. I can tell you that, in 
Texas, it would be quite a bit. In places like Arizona, a lot 
of it is going to be federally owned lands--State-owned lands--
so we would work in coordination with them.
    Senator Heitkamp. I think we have talked a lot already 
about how barriers can slow the development--create a 
deterrence. But, we know that there needs to be additional 
assets--especially personnel and technology. And, I think, 
until we see the report, I do not think that we really will 
have a clear idea on how we deploy all of those resources. And, 
I think, Mr. Colburn and Mr. Aguilar, I think both of those 
factors have come up completely in your testimony, which means 
take a look at the terrain, take a look at where you are, take 
a look at what is possible and what is not possible, and make 
sure that we have a border strategy that is smart and that does 
not spend money where we do not need to spend money just 
because we promised something during a political campaign.
    Finally, I think one thing that has not been talked about 
here is the role of Mexico. I think we all understand Mexico is 
not going to pay for this wall if it gets built. But, there is 
a critical role that our neighbor to the south plays, in terms 
of border enforcement. And so, I am curious about how you see 
Mexico playing in border enforcement, because it seems to me 
that Mexico must be a critical partner in any effort on our 
shared border.
    The migration spikes that we are seeing are originating in 
Central America, as Senator Carper pointed out, not Mexico. 
But, people are traveling through Mexico to get there. So, what 
do we need from Mexico that they are not doing now to forge a 
relationship to stop the traffic? And, I would include, not 
only migration of people, but also drug enforcement.
    Mr. Aguilar. So, as it relates to Mexico, first and 
foremost, I think I would say the relationship between Mexico 
and the United States is unprecedented. We have never had the 
level of relationship that we have with Mexico now--in a very 
positive way. As we speak today, the relationships, the 
strategies being put forth, the efforts, the joint 
intelligence, the sharing, and the liaison--all of those things 
have been improved dramatically.
    Now, as with Canada, we need to do more of that. Those 
relationships need to continue to be solidified even beyond.
    Senator Heitkamp. But,   you   would   agree   that   our   
relationship--law enforcement to law enforcement--with Canada 
is far different than our relationship with law enforcement----
    Mr. Aguilar. Oh, absolutely. Look, not too long ago, 
Senator, Mexico used to say, ``Treat us more like you treat 
Canada, not like you treat Mexico.'' I think we are getting 
closer to that, because of the evolution of where we were to 
where we have gotten. I often say that, when I first came into 
the Border Patrol in 1978, the last people that you would think 
about calling were the Mexicans when something happened on the 
border. Today, they are the first ones we call when we have a 
situation. And, you are absolutely right, in that Mexico is 
pretty much at the place that we were 30 years ago with our 
Southern Border. Their Southern Border is getting overrun--not 
by people that want to stay in Mexico, but by those who want to 
get to the United States. There is absolutely more that needs 
to be done by them, with our assistance, on their Southern 
Border. There is more that needs to be done by the United 
States and Canada in Guatemala, El Salvador, and Honduras, in 
order to increase the rule of law, civil society, health, 
education, all of these things.
    So, that is exactly what we should be talking about, but we 
constantly focus on the wall--as we should be focusing on our 
borders. But, it needs to be a very systematic approach across 
the entire breadth of what is causing the problems.
    Senator Heitkamp. I certainly look forward to the 
Department of Homeland Security's report, and I hope they do 
include a strategy for collaboration with tribal entities that 
serve on both sides of the border--but also the Mexican 
officials. But, we need to be realistic about that 
relationship--and it is not Canada. I think we can all agree on 
that.
    Mr. Aguilar. If I might, because I think this is critically 
important, first and foremost, talk to the agents--talk to the 
Border Patrol--and I assure you that they are absolutely 
engaged with the communities. Now, they cannot please everybody 
within the communities, but, if there is any--especially 
Federal--law enforcement agency that has their thumb on the 
feel of what is going on with the communities, it is the Border 
Patrol. We spend a lot of time making sure that we have dealt 
with them, that we understand their needs, understand their 
concerns, and build the relationships. So, when the tough 
decisions were being made, all of those things were being taken 
into consideration.
    Chairman Johnson. And, just to point out, we had a hearing 
last week with the heads of the unions of the agents. We have, 
on a bipartisan basis, a group of staff going down and talking 
right down to the folks who are the boots on the ground. But, 
Senator Heitkamp, when we talk about the insecurity of the 
Mexican-Central American border, I remember our Congressional 
Delegation (CODEL) in Guatemala, where you could basically walk 
across the--we are here at the Border Patrol entry point, and 
you can basically walk across the boats.
    Senator Heitkamp. Right. They are swimming across. But, 
also, Mr. Chairman, I want to remark about the great work that 
the Department of Homeland Security is doing in those 
communities to try and provide technological solutions--
stopping buses--all of the issues, especially as it relates to 
human trafficking. So, that was a great trip. I hope we can do 
something like that again.
    Chairman Johnson. Of course. Our guide was General Kelly, 
so he knows what he is talking about. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you.
    Mr. Aguilar, thank you for your service. According to the 
strategic plan from 2012 through 2016 of CBP, my understanding 
is that the priorities include, in this order: first, 
preventing terrorists and weapons from entering the United 
States; second would be managing risk, which includes the 
adoption of technology and all you have talked about, in terms 
of situational awareness; and third would be disrupting and 
degrading transnational criminal organizations.
    Before I was elected Senator, I was the Attorney General 
(AG) of California, and one of the first trips that I took 
after being elected back in 2011 was down to the border with 
Mexico. I surveyed the tunnels and the border. I saw 
photographs of tunnels with walls as smooth as the walls in 
this Committee room, lined with air-conditioning and lighting, 
which made an obvious point very clear: that there is a large 
investment of money by the transnational criminal 
organizations--we estimate up to $3 billion a year--in creating 
an infrastructure for them to be able to do their business, 
which is the trafficking of guns, drugs, and human beings. 
Would you agree with that?
    Mr. Aguilar. Absolutely, yes.
    Senator Harris. And, in fact, I commissioned a report 
shortly thereafter, which I, Mr. Chairman, would like to submit 
in the record.\1\
---------------------------------------------------------------------------
    \1\ The report referenced by Senator Harris appears in the Appendix 
on page 195.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Harris. ``Gangs Beyond Borders,'' which highlights 
the concern that California has about the transnational 
criminal organizations.
    One of the things that we learned in documenting this 
report is that trafficking takes place because there has been 
an investment in that, as we have discussed. But, trafficking 
includes not really necessarily things coming across the border 
on foot, but also through tunnels and by air. In fact, we 
document hundreds of ultralight aircraft flights for the 
purposes of trafficking.
    So, back to the point then of this wall. We also document, 
for example, the use of panga boats, and, Mr. Colburn, you 
talked about the waterways that are used for trafficking.
    Do you agree that if the United States invests billions of 
dollars in wall infrastructure, the cartels will simply invest 
more in underground tunnels and water and aerial approaches?
    Mr. Aguilar. Yes. Yes, they will, and that gets to the 
issue of what is making them do that.
    Senator Harris. Right.
    Mr. Aguilar. It is the dollars. It is the draw. It is the 
draw of illegal immigrants into this country. It is the draw of 
people seeking asylum--political refugees. It is the draw of 
the narcotics coming into this country.
    Senator Harris. Well, let us be clear about that. When we 
are talking about the trafficking of guns, of drugs, and of 
human beings--there have been many people, including, I 
believe, the Secretary of the Department of Homeland Security, 
that have acknowledged that a major draw--especially in terms 
of the trafficking of drugs--is America's insatiable appetite 
for narcotics. Would you agree with that?
    Mr. Aguilar. Yes, absolutely.
    Senator Harris. Right, so that is not about immigrants 
creating that appetite. The appetite exists in the United 
States, and just basic principles of capitalism tell us that 
wherever there is a demand, there will be a supply. Would you 
agree with that?
    Mr. Aguilar. Absolutely.
    Senator Harris. So, when we are talking about this and we 
are looking at the amount of money that it takes, in terms of 
our need, to keep our border secure from the trafficking of 
drugs, guns, and human beings, can you tell me what you believe 
the priorities should be, in terms of the government funding 
CBP in its noble effort to keep our borders secure--and, in 
particular, secure from the trafficking of illegal substances 
into the United States that harm Americans in a very direct 
way?
    Mr. Aguilar. Well, if you take a look at funding, 
specifically through a silo of CBP--and that is all that we are 
talking about, CBP prioritization?
    Senator Harris. Yes, just CBP. Yes, please.
    Mr. Aguilar. Because, if you go beyond that, there are 
other priorities before CBP.
    Senator Harris. Sure.
    Mr. Aguilar. But, as it relates to CBP, right now, given 
the current environment that we face on the border, it is 
technology--and, depending on where you go from there, it is 
infrastructure and personnel.
    Now, Senator, one of our primary examples of success is, in 
fact, California, when it comes to infrastructure. As young 
agents, we both worked an area known as the ``soccer field.''
    Senator Harris. Oh, yes.
    Mr. Aguilar. It was a soccer field. It was American 
territory that was ceded to Mexico. We could not go in there as 
a two-man team. We had to, literally, go in there with a 
tremendous amount of support, because we had ceded--smugglers 
operated there. Today, on the soccer field, we have multi-
million-dollar homes. We have thriving commercial businesses. 
We have malls in that area.
    Senator Harris. Right, but this is because of the work that 
happened many years ago.
    Mr. Aguilar. Yes.
    Senator Harris. And, I applaud you for that work, but I 
think we agree--and your testimony has made clear--that times 
have changed----
    Mr. Aguilar. Absolutely.
    Senator Harris [continuing]. Because of the reordered 
priorities, which have been quite successful.
    Tell me something. The last major hiring surge of CBP 
agents occurred during your tenure, correct?
    Mr. Aguilar. Yes.
    Senator Harris. And, that surge and the corresponding rise 
in the tactics of cartels to infiltrate CBP led Congress, while 
you were there, I believe, to institute polygraph testing for 
new border agents. Is that correct?
    Mr. Aguilar. That is correct.
    Senator Harris. And, in August 2012, you testified to the 
House Committee on Oversight and Government Reform (OGR) about 
CBP's efforts to prevent and detect corruption and misconduct 
in its workforce, and specifically you said, ``Background and 
periodic investigations as well as polygraph examinations are 
consistent with, and form the basis of, a comprehensive 
workforce integrity plan.'' Do you still believe that to be 
true?
    Mr. Aguilar. Yes.
    Senator Harris. And so, President Trump issued this 
Executive Order mandating the hiring of 5,000 new Border Patrol 
officers, which would result in a 25-percent force increase. 
Would it not be a threat to officer safety and public safety to 
loosen the processes by which we determine who should be 
eligible and qualified to enter the force?
    Mr. Aguilar. There is not a law enforcement officer--not 
just a Border Patrol Agent--that would not say that lowering 
qualifications--lowering standards is unacceptable.
    Senator Harris. Right.
    Mr. Aguilar. Now, we have learned a lot from that time 
frame, where we basically doubled the size of the Border 
Patrol. The Border Patrol is much larger. They have the, 
benefit of all of the hard lessons learned--the school of hard 
knocks. There are things that can be implemented. There are 
things that we did right and things that we could have done 
much better.
    What you are referring to, I believe, Senator, is taking a 
look now--which I actually applaud--leadership taking a look at 
what it is that has been done in the past and what can we do 
better. But, at the forefront of that, we should not, in any 
way, reduce standards or qualification requirements.
    Senator Harris. Thank you. I appreciate that. And, I know 
you know that one of the concerns that we have is, given the 
amount of money that the transnational criminal organizations--
Sinaloa and other cartels--have invested in making sure that 
they can profit from their illegal activities--is to do a 
number of 
things--being creative around how they will get over and under 
ground to be able to transport their wares. But also, they 
have, in their history--and based on their business model--a 
real incentive to compromise agents at the border. And so, we 
have to make sure that we have the highest standards, so that 
we can make sure that we are hiring agents, such as yourself 
and Mr. Colburn, who years before were being creative in 
helping to secure our borders. I thank you for your service.
    Mr. Aguilar. We are in lockstep on that, Senator.
    Senator Harris. Thank you.
    Chairman Johnson. Thank you, Senator Harris.
    I just have to point out, based on what you said, that 
there are probably far more areas of agreement on this 
Committee--which is what we are trying to do. I will refer 
you--before you became a Senator, on November 23, 2015, we 
issued a report after 13 hearings and 3 roundtables on border 
security. Our key finding in the report--and I am just going to 
read it--``America's insatiable demand for drugs''--the same 
words you used. ``America's insatiable demand for drugs, 
coupled with smugglers' insatiable demand for profits, is one 
root cause, perhaps the root cause, preventing the achievement 
of a secure border.'' So, I am in total agreement with you. It 
is our insatiable demand for drugs that is destroying public 
institutions in Central America--crime-ridden--the impunity and 
the corruption. That is something we really have to address. 
This is incredibly complex, but I think there are a lot of 
areas of agreement. I think we are finding that today, in this 
hearing, finding what we need to do to secure our border, but 
also understanding----
    Senator Harris. Cause and effect.
    Chairman Johnson. ``We have seen the enemy, and it is us.'' 
Right?
    Senator Harris. Thank you. I appreciate that.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman.
    I would ask that each of the witnesses talk for just a 
minute, in terms of this balance or mix of infrastructure--
meaning a wall, technology, and personnel. Talk about your 
perception of the strengths and weaknesses of each and the 
steps you would take to address it right away and in what 
priority. Mr. Aguilar, if you want to start?
    Mr. Aguilar. Sure. Thank you, Senator. Technology at the 
current time, in the current environment, with current needs is 
going to reflect the highest needs that the Border Patrol has 
for several reasons. It gives you situational awareness. It 
gives you intelligence--immediate juridical line intelligence--
and it gives you the capability to respond in an effective 
manner and in a safe manner.
    Senator Hoeven. And, when you say that, do you mean 
unmanned aerial systems (UAS)? Do you mean sensors? 
Communications? Define some of----
    Mr. Aguilar. It is a combination of those things, dependent 
on what area of the border you are talking about. We have 
areas, for example, that both of us worked in Nogales, Arizona, 
where the canyons are basically so close together that an IFT 
tower will not work. A remote video surveillance system will 
not work. But, a helicopter can only fly for, I think it is, 2 
hours. For Black Hawks, 2 to 3 hours. Whereas, a drone, a 
tethered drone--can stay up for weeks at a time. Or, if you 
place a relocatable tower with the capabilities of Doppler 
radar to detect movement, that has a high-fidelity camera that 
can go 7 or 8 miles and detect a person--whether he is carrying 
a bundle, a gun, a weapon, a longarm, and so forth. These are 
the things that come into play.
    So, it is the packaging of those capabilities that do exist 
by the way of technology, identifying what best fits the area 
of the border that is of interest, from an operational 
perspective, and placing it.
    Now, part of that is going to be also asking if that 
package of technology requires infrastructure to do that 
slowdown, if you will--and create that efforts of time and 
distance and, in addition to that, the personnel to respond to 
it. And, by the way, that personnel response may be in a Black 
Hawk, because of the area that is so remote and rural.
    So, it is all of these things. As the Chairman said, it is 
very complex. There is not a ``one-size-fits-all'' for the 
border.
    Senator Hoeven. So,   is   the   Department of   Homeland   
Security--General Kelly and the planners--are they approaching 
this in that holistic way?
    Mr. Aguilar. I can assure you that they are doing that, 
absolutely. That is what we have historically done. That is 
what they will continue to do.
    Senator Hoeven. And then, throw in the metrics piece, 
too--measuring results and knowing what our success rate is out 
there.
    Mr. Aguilar. Absolutely. And, that, again, is going to be a 
big part of the technological capabilities, because it will 
give you that situational awareness of what is happening, when 
it happened, what the results were, and what are the actions 
needed to take for any continued interest in that area of 
operation.
    Senator Hoeven. And, you need those metrics to know where 
you have to adjust, improve, and strengthen your effort, right?
    Mr. Aguilar. Absolutely. Yes, sir.
    Senator Hoeven. Mr. Colburn, your thoughts on the same 
question and how you would manage--I mean, this is a huge 
logistics challenge, so how would--if you are king of the world 
and running it, how are you going to do it?
    Mr. Colburn. At the risk of being a bit redundant with what 
Chief Aguilar said--we actually worked together off and on 
through about three decades, so sometimes we tend to think a 
lot alike. But, I will take strengths first and just say simply 
that the right mix rapidly deployed--and that is all of the 
above that we have discussed--so rather than elaborating 
further. When it comes to strengths, it is all of the above.
    For the weaknesses--the missing link. Without tactical 
infrastructure, then it is too weak. Without the right amount 
of manpower, it is too weak. And, without the right mix of 
technology, it is too weak. The links in the chain have to be 
equally strong, and it has to be the right mix. And, it is not 
going to be the same in San Diego as it is in Rio Grande Valley 
in South Texas.
    Lastly, we have talked about how the transnational criminal 
organizations have created their own business flexibility 
models. They are not the old--as we used to call them--``mom-
and-pop'' smugglers of 30 years ago. Now, the TCOs--the 
cartels--own the border. They are the gatekeepers, they are the 
plaza watchers, and they control who plies their trade there 
through a hierarchy of smuggling and gang systems that report 
up their chain to them--very much like a large corporation or a 
government.
    That said, we talked about CBP and what they need in the 
silo of CBP. One thing I have confidence in Secretary General 
Kelly as well as the chiefs in the Border Patrol and the 
leadership of CBP for, is that they will not ask for more than 
what they need. But, they do need to be given exactly what they 
need to secure the border. And, that was my challenge in Yuma, 
and the way I put it to both the American people, the 
Administration, and Congress at the time was, it was not about 
empire building. It was about asking for the right mix, but 
bringing it on--and bringing it on quickly, and it made a 
difference. But, out of 2,000 miles, that was 125 miles.
    Senator Hoeven. Again, how do you know when you have the 
right mix?
    Mr. Colburn. You go to the professionals in the field, and 
they walk it yard by yard, as they have done. They assess it, 
and they identify what they think they need, compared to the 
kind of--foliage-penetrating radar did not exist in 2005 for 
the capabilities or uses of the Border Patrol that exist now. 
So, when we talk about next year's technology, and we talk 
about the challenges of, say, toward, in South Texas versus, 
say, in Arizona--now they have created foliage-penetrating 
radar at the ground level--not just from the air. So, 
fortunately for all of us, the technology evolves. And, I know 
you will hear this from the Secretary, himself. If you can get 
the right combination--less expensive is always better. I am a 
taxpayer, too. That is why I say that it should be just what 
you need, not more than what you need--and off-the-shelf and 
integratable. It has to be integratable, so that it can be 
replaced or added to and have an impact that way--whether it is 
in South Texas or California--if it can be integrated.
    Senator Hoeven. Right, and you have to have a way to 
measure results, something that we agreed to, so you know 
whether you have the right asset mix out there, the right 
deployment level, and so forth, right? I mean, that is really 
the way--you can have the expert tell you what you should do, 
but you have to have somebody to measure what you are doing.
    Mr. Colburn. Some of the metrics are easy and some of them 
are not so easy, and that is what I have found in the law 
enforcement world, in general. I remember speaking to an 
organization in Arizona, the Arizona Association of Chiefs of 
Police (AACOP), a few years ago, and at the end of my 
presentation on the state of the border in Arizona, one of the 
municipal chiefs of the largest municipality in Arizona raised 
his hand, during the question-and-answer period and said, ``So, 
Chief Colburn, when will you finally get absolute control of 
your border in Yuma?'' And, I said, ``Chief, when will you 
finally stop all crime in Phoenix?'' And, he thought about that 
for a minute and shook his head, and said, ``Now I get it.''
    Crime will never go away, and they will not stop trying. 
But, we can create a deterrent stature that will stop them. We 
have come a long ways.
    Senator Hoeven. But, to create good policy in the whole 
immigration area, we need to understand exactly what we are 
doing on the border. We need to have some agreed-upon metrics, 
so that everybody does not come in with a different story about 
what the results are--I mean, get some kind of baseline--some 
kind of agreement on what is going on. And, that is why the 
metrics are a very important part of doing this.
    Mr. Colburn. Yes, and you are absolutely right. They have 
to be universally the same and consistently measured that way--
or they are useless.
    Senator Hoeven. Right.
    Mr. Colburn. And, the chiefs demand----
    Senator Hoeven. And, to foster some understanding in the 
public, right?
    Mr. Colburn. Yes.
    Senator Hoeven. We need it so that they really know what is 
going on there. I think it is not only important, in terms of 
national security, but also in terms of creating and building 
support for good policy.
    Professor, I wanted to get to you. I know I am over my 
time, and we have a pretty rough Chairman on this Committee, so 
I have to be careful here.
    Chairman Johnson. Yes, you do.
    Senator Hoeven. But, please share just a thought or two 
briefly.
    Mr. Garrett. OK. I want to kind of turn it around a little 
bit and look at it slightly differently. Obviously, I cannot 
address what they have. However, what about economic security 
on the U.S. side of the border? When we escalate the trade war 
or when we put the affront of the actual physical barrier--the 
wall--in front of Mexicans that come over to South Texas, 
California, and other 
places--I can tell you, the last time the wall went up, we lost 
millions in the Valley, and in terms of people coming over 
directly. That is the fear this time around. In fact, the mayor 
of South Padre Island is just terrified that Mexicans will not 
come over this upcoming week for Santa Semana. We are going to 
lose all kinds of money because of fear of coming over--because 
of the rhetoric coming out from President Trump, primarily.
    And also, the mayor of McAllen, he says the same thing. He 
says that the effect of a trade war with Mexico would cascade 
beyond lost jobs in the U.S. plants. Downtown stores would lose 
business, lay off workers, and close up shop. Mexican investors 
would likely sell off their U.S. properties, leading to 
plummeting real estate values.
    McAllen, Texas--all along the Valley--because of what has 
happened since 2006, lots of Mexican nationals have bought 
property on the U.S. side, along the Rio Grande--and, in 
particular, about one-half of South Padre Island, which is a 
resort community that depends heavily on tourism from Mexico, 
half of the properties there are owned by Mexican nationals.
    So, the idea is, if we terrify the Mexicans sufficiently, 
it could cause a real problem for us along the Rio Grande 
border.
    Senator Hoeven. Thank you.
    Chairman Johnson. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman.
    I was struck by this press release that came out from U.S. 
Customs and Border Protection on March 8, which mentioned that 
we saw a 40-percent drop in illegal Southwest Border crossings 
from January to February. My understanding is that was far 
outside normal seasonal trends. So, there is something--it is 
not just 
within the statistical variation. Something has changed in the 
process--in the system. Typically, the January to February 
change is actually an increase of 10 to 20 percent. And yet, 
the numbers reported by CBP say that it was a 40-percent drop. 
That breaks a 20-year trend. I am curious, Mr. Aguilar, why?
    Mr. Aguilar. This has actually happened before, Senator, 
and let me just update that. March 8, I believe you said it 
was.
    Senator Daines. Yes.
    Mr. Aguilar. As of March 31--5 days ago, whatever it is--it 
is actually up to a 67-percent drop, compared to last year.
    Senator Daines. So these are the February numbers updated 
further?
    Mr. Aguilar. Yes.
    Senator Daines. OK. So, if CBP issued another press 
release, you would say that they have updated the February 
numbers. It was not a 40-percent drop. It is now a 67-percent 
drop?
    Mr. Aguilar. Right.
    Senator Daines. Is that going to come out with another 
release?
    Mr. Aguilar. I am sure it will.
    Senator Daines. OK.
    Mr. Aguilar. I am sure it will. They should.
    Senator Daines. My interest is even more piqued, let us 
say.
    Mr. Aguilar. Absolutely. And, we have lived this before. 
This has happened before. As it relates to immigration, 
especially, when the United States stands strong and takes 
certain actions--substantive actions--and substantive may be 
something--as, primarily, the current Administration saying, 
``We are going to do this,'' and something substantive happens 
to do that. This Administration has said, ``We are going to 
address illegal immigration.'' ICE has started working in the 
interior--unlike other times. So, that message resonates.
    The problem is that it does not hold for long, unless those 
substantive actions continue. We saw this under the Immigration 
Reform and Control Act of 1986 (IRCA), under President Reagan, 
when IRCA was passed. It dropped overnight. We saw this on the 
border, when we took effective actions in California. We built 
infrastructure, we added Border Patrol Agents, and we threw 
them in, literally, overnight. There was a shift over to 
Arizona. We saw this in Arizona, when we added agents to 
Nogales--we were both there--and it shifted over to New Mexico 
and El Paso. But, then what happens? When you cannot maintain 
that, it defaults right back to where it was.
    In the Border Patrol, specifically, when we started down 
the path of strategic application of resources, there were 
three things that we talked about: We have to go into an area 
and gain the control that is needed. Once you gain the control 
that is needed by way of metrics, then you have to be able to 
maintain and sustain that control--and then continue the 
expansion. So, it was gain, maintain, and expand.
    So, there has to be substantive actions--substantive 
decisions to hold what it is that you are doing.
    Senator Daines. So, what are the one or two things that we 
need to do now to ensure that we do hold this--maintain, as you 
said--this dramatic decrease in illegal crossings?
    Mr. Aguilar. Well, what we are talking about here is 
addressing the border--the needs of the border and the needs of 
the Border Patrol, as identified by the current chiefs in the 
field: technology, infrastructure, personnel in the right mix, 
in the areas that they need it.
    In addition to that--and this is a whole other hearing, 
Senator Johnson. You and I have talked about this. The 
supporting entities to the Border Patrol--what happens when an 
unaccompanied alien child (UAC) is apprehended by the Border 
Patrol--or a family unit? There has to be a system in place 
where it can be handed off, so they can get right back to the 
border. But, now that is not the case.
    And then, our Executive Office for Immigration Review 
(EOIR) system--or immigration judges--are overwhelmed and are 
docketing cases 8, 10, 15 years from now on people that need to 
have immigration hearings. It is all of these things combined.
    Senator Daines. So, we are here, today to talk about 
physical infrastructure--a wall. Clearly, a wall and some kind 
of physical barriers are a means to an end. The end is to 
reduce the number of illegal crossings. If you were to 
prioritize--I am going to ask all of you this question to think 
about. If you were to prioritize where this Committee--where 
Congress should place its efforts--because you mentioned, for 
example, the backlog with judges is one part of this equation--
what would you tell us? I recognize we need to be able to do 
more than just one thing at a time. But, if there were two or 
three things we should prioritize in stacked, ranked order, to 
reduce the number of illegal crossings, what would they be?
    Mr. Aguilar. Prioritize and--this is the way I would answer 
that question. Prioritize a system that can have the impact. 
That 
system has to begin with the Border Patrol, given the current 
environment. There are things happening now that have to be 
addressed. So, begin with the Border Patrol--its needs and its 
requirements--and then take a look at the supporting entities 
for the Border Patrol.
    And, by the way, somewhere in that system--and this is up 
to this body and the House of Representatives--you have to take 
a look at what it is we do, from an immigration requirement, in 
this country. Is it comprehensive immigration reform? All of 
these things are part of that systematic approach that needs to 
be taken. But, if we are going to look at the immediate border, 
it is Border Patrol-centric requirements and the supporting 
entities to the Border Patrol. By that, I mean ICE support, the 
Department of Health and Human Services (HHS) support, the 
Office of Response and Restoration (OR&R) support, and EOIR 
support. That right there would be a border-centric approach 
that would make a world of difference.
    It is not the entire solution, by the way, because there is 
so much more that needs to be done.
    Senator Daines. Thank you. I am going to run out of time. 
There is so much to talk about here. But, back to the topic at 
hand, as it relates to physical barriers on the border, what is 
left for Congress to do to get this infrastructure built?
    Mr. Aguilar. Fund. Fund, appropriate, and----
    Senator Daines. So, the authority exists.
    Mr. Aguilar. The authority exists.
    Senator Daines. We have all of the legal authority. The 
constraint is funding?
    Mr. Aguilar. Funding and identification from the Border 
Patrol, CBP, and DHS as to what the requirements are, yes--and 
fund those requirements.
    Senator Daines. I am out of time. Mr. Chairman, thank you. 
You probably all wanted to answer the top three, right?
    Chairman Johnson. Go ahead and answer, but then we will cut 
it at that.
    Senator Daines. Mr. Chairman, I want to give everybody a 
chance to----
    Mr. Garrett. Can I answer?
    Senator Daines. Go ahead. Mr. Colburn, do you want to 
answer it as well?
    Mr. Colburn. Yes, please.
    Senator Daines. OK.
    Mr. Garrett. I would say that we need to have a hemispheric 
policy, first and foremost. We need to stem the flow of 
migrants coming across. I think that is far more important than 
trying to stanch the bleeding once they come into this country. 
So, if we were able to use diplomacy, use resources--economic 
and political--to stabilize these regimes--and, second, I would 
say, to reduce drug consumption in the United States--I think 
we have all touched on that today--on this side of the border, 
which is a driving economic reason. So, I would give you those 
as the two top things we need to do.
    Senator Daines. I am very encouraged by Secretary Kelly. 
When he thinks about this, he thinks as U.S. Southern Command 
(SOUTHCOM) leadership. He brings a much more systemic view of 
this. And, when you talk about the Southern Border, Secretary 
Kelly says, ``Well, it starts 1,500 miles to the south.''
    Mr. Garrett. Absolutely.
    Senator Daines. The point you are making--Mr. Colburn, 
please.
    Mr. Colburn. Thank you. The question that you posed to us 
actually I asked just recently during my comprehensive border 
tour, in which I was able to get state-of-the-border briefings 
by a number of chiefs--not all nine of the Southwest border 
chiefs, but most of them. And, every one of them said 
relatively the same thing 
in speculation. There is historically--predictably--a surge in 
crossings come January--or mid-January forward, if you look 
back decades--and yet that did not occur this year.
    Senator Daines. Right.
    Mr. Colburn. They said that they thought there was actually 
a psychological impact--that there is this symbolic holding of 
one's breath by the transnational criminal organizations and by 
the governments of Mexico, Guatemala, El Salvador, and 
Honduras, because of the new Administration in place--and that 
it does not mean that they will not at some point decide, ``OK, 
I think we can continue plying our illegal trade.'' But, there 
is this, I will call it, ``symbolic'' or ``symptomatic'' 
holding of one's breath corporately across the organizations--
and they have slowed down. They are watching and waiting to see 
if Congress, the American people, and the Administration have 
the will to follow through with completing it. And, if we do, 
then we may see this as a continuing down trend of crossings--
deterrence.
    Senator Daines. There are early reasons for hope right now, 
but I know many Americans are just so frustrated by this 
fundamental lack of enforcing the rule of law. And, perhaps, 
that change in tone and tenor will be it--again, it is a 
complicated system. We have talked about it at length. There 
are multiple variables here. But, let us just say that I think 
we are off to a better start.
    Mr. Colburn. If I may--sorry--another thought occurred to 
me just now. Something else that is historically unprecedented 
has occurred over the last 2 years, where Mexico deported more 
Central Americans--from Guatemala, Honduras, and El Salvador--
than the United States did. That is very symbolic. My personal 
history with Mexico is sending teams to train those protectors, 
Grupo Beta, the rescuers. It was always easier to call the 
Mexican people and their government leadership as a 
constituency--it is always to provide support from the United 
States of America's government when it is saving lives and 
rescuing people. So, we always started that way with Grupo Beta 
and rescuing.
    But, actually, the late Deputy Assistant Attorney General, 
I believe his name was Nemesio Lugo, who has since been 
assassinated by the cartels, turned to me over lunch one day 
and said, ``We have a real problem on the Southern Border 
because they are remaining in Mexico and looking for work in 
Mexico instead of going forward.'' So, Mexico is beginning to 
experience the economic drive 
that--there are seven billion people in the world, and five 
billion of them want to come to America, because of that 
economic drive. And, Mexico is beginning to experience that, 
too.
    So, I think we can continue to partner with them and the 
other countries, and as General Kelly said, ``It starts beyond 
our borders.''
    Senator Daines. Thank you for your candid and insightful 
comments today. Much appreciated.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Daines.
    I would just summarize kind of what I am hearing. Dr. 
Garrett, you said to ``stem the flow.'' Overall, I think you 
have to end the incentives for illegal immigration. There is a 
host of them: our insatiable demand for drugs--I mean the fact 
that people are coming here for the opportunities in America--
so have a functioning guest worker program. I would say to end 
the length of the adjudication problem, which is incentivizing 
children from Central America to take the very dangerous 
journey. We had a surge of flow from Brazil, and Secretary 
Chertoff sent those folks right back, and it ended the flow. 
So, I think you focus your attention on how you stop the 
incentives for illegal immigration.
    I just have one final point and a question, because Dr. 
Garrett talked a little bit about the reduction in crime in the 
border cities. In Wisconsin, Al Capone had a really nice 
vacation spot on an island, and he did not create a whole lot 
of crime up there. He wanted to keep law enforcement's 
attention off of him. And, as I have been on the border and I 
have talked to sheriffs, that is kind of their explanation, 
too. I was actually surprised that there is not a whole lot of 
crime at the border--again, they really do not want law 
enforcement paying a whole lot of attention to what they are 
doing in those towns. I would just ask Mr. Aguilar and Mr. 
Colburn: Is that an accurate assessment?
    Mr. Aguilar. The sheriffs know their areas, but I lived the 
chaotic borders of the late 1980s, early 1990s, and so forth. 
Crime was rampant. Crime was absolutely rampant. There was 
everything from stolen vehicles--Senator Hoeven asked about 
metrics. One of the metrics that we actually used, which may 
sound a little ridiculous--but it was things we were watching. 
Ladies could not put clothing out to dry in their backyards 
because it was stolen. When that stopped happening, we said, 
``Wow, something is happening here.'' Merchants could not keep 
their doors open to their stores, because the smugglers were 
taking over the stores. That is a localized metric.
    The associated criminal activity with an uncontrolled 
border is very high. Breakings into homes--into ranchers' 
homes--these things went on and on and on.
    Chairman Johnson. So, what happened? Why is crime reduced 
then?
    Mr. Aguilar. The increase in personnel--Border Patrol 
personnel--the increase in infrastructure, and the increase in 
technology. Those are the things that, basically, lowered the 
criminal activity.
    Chairman Johnson. Mr. Colburn, do you want to chime in on 
that at all?
    Mr. Colburn. I will just add that I remember 30 years ago 
patrolling the border--and I was the new guy as a supervisor, 
who had just arrived in 1 of my 10 duty stations. And, as we 
were patrolling the border, we came across what I would 
describe now as a palatial estate, with high walls around it, 
on the U.S. side, just within view of the border. And, as we 
drove by, the journeyman veteran agent that was riding with me 
said, ``Yes, that is the house that dope built.'' A lot of 
those groups that are investing in America are the cartels. A 
major shootout in San Diego a few months ago was cartel on 
cartel in a bedroom neighborhood.
    So, part of the risk, of course, is as they are killing 
each other in Mexico, and right across from McAllen, Texas, in 
the Rio Grande Valley, South Texas, some of the most violent 
warfare-like fighting is going on, as we speak--where gun 
battles last 8, 10, or 12 hours overnight, blockading and 
burning vehicles----
    Chairman Johnson. Which, by the way, is exactly what we 
hear from the people on the border. They are hearing all that 
gunfire and they are hearing those battles.
    Mr. Colburn. Most of what I get--I am still a member of 
the--as a private citizen and consultant in retirement from the 
Border Patrol, I am a member of the intelligence and 
information community, but I get open-source information. And, 
what is going on in Mexico--the violence of the cartels makes 
the Colombians of the 1980s look like amateurs. It makes the 
Islamic State of Iraq and Syria (ISIS) and the Taliban look 
like amateurs. That is how brutal they are. It is almost a 
contest to see who can out-brutalize each other.
    Chairman Johnson. I do not even want to mention the 
brutality I have heard.
    Dr. Garrett, we will let you close it out here.
    Mr. Garrett. OK. So, in Brownsville--UTB, our campus, has 
actually been hit by three bullet rounds, but they were from 
the Mexican Army, in a shootout. We were actually in an 
academic affairs committee meeting when Tony Tormenta of the 
Gulf Cartel, was taken out by the Mexican military. The Mexican 
military has been very instrumental, in terms of battling the 
groups very violently. That is where the violence is taking 
place. It is not taking place over on the U.S. side primarily. 
Most of it is in Mexico, unfortunately.
    Chairman Johnson. Again, I will attribute that to--I will 
call it the ``Al Capone syndrome.''
    Senator McCaskill, do you have anything else?
    Senator McCaskill. No.
    Chairman Johnson. Again, I want to thank the witnesses. I 
think this has been an incredibly interesting hearing--again, 
our 22nd. We are going to keep laying out these realities, and 
I appreciate you contributing to that effort.
    The hearing record will remain open for 15 days until April 
19 at 5 p.m. for the submission of statements and questions for 
the record. This hearing is adjourned.
    [Whereupon, at 11:33 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
